<html>
<title> - DEMOCRACY PROMOTION IN A CHALLENGING WORLD</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                       DEMOCRACY PROMOTION IN A 
                           CHALLENGING WORLD

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 14, 2018

                               __________

                           Serial No. 115-142

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/
                      
                      
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-423PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b0d7c0dff0d3c5c3c4d8d5dcc09ed3dfdd9e">[email&#160;protected]</a>                     
                      
                      
                      

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Carl Gershman, president, National Endowment for Democracy...     5
Mr. Daniel Twining, president, International Republican Institute    12
Mr. Kenneth Wollack, president, National Democratic Institute....    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Carl Gershman: Prepared statement............................     8
Mr. Daniel Twining: Prepared statement...........................    15
Mr. Kenneth Wollack: Prepared statement..........................    26

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Statement from the Democracy in Europe 
  Working Group..................................................    81
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    88
Written responses from the witnesses to questions submitted for 
  the record by:
  The Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................    90
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................   111
  The Honorable Ann Wagner, a Representative in Congress from the 
    State of Missouri............................................   112
  The Honorable Dina Titus, a Representative in Congress from the 
    State of Nevada..............................................   115

 
                       DEMOCRACY PROMOTION IN A 
                           CHALLENGING WORLD

                              ----------                              


                        THURSDAY, JUNE 14, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:00 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order.
    There is no doubt democracy is on the ropes. Freedom House 
reports that democracy has declined worldwide over the last 
decade.
    The question for us is do we care? And if so, what should 
we do about it?
    We better care. Democracy's expansion brought unprecedented 
prosperity. America is more secure when fewer nations are 
authoritarian, which is the unfortunate alternative to 
democracy.
    Strongmen regimes justify their repression at home by 
creating enemies abroad. Since the freedom we enjoy is a threat 
to authoritarian regimes, the U.S. and our allies are natural 
targets of their aggression.
    We have seen this with Russia and China and North Korea, 
and I'd rather trade and do business with a democracy than with 
a regime.
    Democracy is morally just. Members of this committee have 
spent countless hours holding hearings, protesting, and 
fighting injustice abroad. Human rights are far better 
protected in democratic countries, ones without dank prison 
cells full of political prisoners.
    Democracy is more than just elections. Democracy without 
the foundation of rule of law or individual liberties, a free 
press, and a culture of tolerance is dangerous populism or mob 
rule.
    We've seen that in Burma, South Sudan, Gaza, and too many 
other places. Democratic values are universal. Of course, each 
country will develop democracy in different ways and at a 
different pace, and we may have differences over how best to 
promote democracy in various countries, especially given our 
strategic interests.
    But we should always remember that, as Ronald Reagan noted 
in his 1982 Westminster speech, free elections are enshrined in 
the Universal Declaration of Human Rights.
    At home, we must maintain the decades-old bipartisan 
consensus that democracy is a core element of U.S. foreign 
policy.
    That is why it is important to have the National Endowment 
for Democracy, the International Republican Institute, and the 
National Democratic Institute here today, and that is why it's 
important that Congress continues to adequately fund these 
institutions.
    Promoting democracy is not easy. There are many stresses, 
including destabilizing mass refugee flows and accelerating 
economic change.
    Mistakes have been made, but lessons have been learned. 
These include the need to promote women in building and 
supporting democracy.
    Compounding the challenge, authoritarian regimes such as 
Russia and China are aggressively attacking democracies across 
the globe, including attacking our own democracy.
    As one witness will note, these attacks are broad, 
political, economic, and they are cultural. Beijing is spending 
billions, using the technology revolution to surveille its 
citizens at home while spreading propaganda abroad.
    I have seen Moscow's assault on its neighbors firsthand. We 
better wake up to this threat. Now.
    For years, our great Nation has inspired countless 
individuals to seek freedom in their homelands. Some have been 
tortured, murdered for their democratic commitment.
    Many have succeeded. Our wonderful legacy of leadership on 
this issue has given us power and influence. We must protect 
and nurture our own democracy for that to continue.
    And I will momentarily turn to our ranking member, Mr. 
Eliot Engel from New York, for his opening statement here this 
morning as well.
    Mr. Engel. Thank you, Mr. Chairman, and to our witnesses, 
welcome. I want to especially thank Ken Wollack for 35 years of 
service. Congratulations on your retirement in September.
    Your organizations do incredible work promoting democracy 
around the world, making governments more accountable and 
responsive and shining the light on abuses and corruption.
    It's such important work because around the world 
democracy, unfortunately, is backsliding. According to the 
Freedom in the World report, democracy and global freedom has 
declined around the world for 12 straight years.
    In Africa, while we have seen a slight opening of political 
systems, in Zimbabwe, Ethiopia, Gambia, and elsewhere, in 
Burundi, Rwanda, and the Republic of the Congo, the new normal 
has become constitutional coups, which is term limited 
incumbents changing the rules so they can stay in power.
    When I was in Africa with the chairman we tried to speak to 
the leadership about this but, of course, they wouldn't speak 
with us because they knew what we were going to say.
    Tanzania and Zambia show warning signs of creeping 
authoritarianism, and more and more governments are shutting 
down the internet to stifle dissent and buy time to tamper with 
election results.
    In the Middle East, Tunisia's progress has been inspiring 
and we should help improve the climate for foreign investment 
there. But it's another story in Egypt, where draconian laws 
have limited the ability of civil society to operate.
    And I am a friend of Egypt, so it really pains me when I 
say this. The recent elections in Iraq are overshadowed by 
reports of fraud, which should be cleared up by full recounts 
before forming a new government.
    Across Europe, democratic practices have steadily eroded. 
Turkey's President, Erdogan, has consolidated power and cracked 
down on dissent. It's just really disgraceful what's going on 
in Turkey.
    In Hungary, refugees and migrants face hostility from the 
higher levels of government. In Poland, free speech and an 
independent judiciary are under attack.
    Now, much of this is driven by Russia, a fake democracy, 
whose leader, Vladimir Putin, seeks to undermine Western unity 
and discredit democratic institutions.
    Since 2014, in Asia, there has been a military coup in 
Thailand, a populist leader elected in the Philippines, who 
shoots people on sight because the thinks they are involved 
with drugs, ethnic cleansing in Burma at the hands of the 
military--very disappointing.
    Cambodia's prime minister of 33 years has neutralized 
political opposition and China grows more aggressive in 
oppressing its own citizens, quietly promoting its 
authoritarian model around the world as an alternative to 
Western democratic values and chipping away at international 
norms.
    Here in our neighborhood in our hemisphere, Nicholas Maduro 
has turned Venezuela into a full-blown dictatorship with sham 
elections, political prisoners, and a denial of the country's 
humanitarian crisis.
    Taken together, these cases and others become a problem for 
our national security. The United States wants to see vibrant 
democracies around the world, countries that share our values 
and priorities.
    Strong democracies make strong partners. When we 
collaborate with like-minded governments, we are better able to 
meet challenges, project stability, and drive prosperity.
    On the other hand, the greatest threats we face come from 
places where governments are closed off, where human rights 
aren't a priority, where ordinary citizens have less of a say 
in choosing their leaders.
    These are the places where vulnerable people are exploited 
and extremism is able to take root. So promoting democracy, 
helping to advance our democratic values around the world--the 
work that your three organizations do--as I say to the 
witnesses--should be at the center of our foreign policy.
    As I often say, it's the right thing to do because 
democracy helps people live fuller freer lives and it's also 
the smart thing to do because democracy is good for our 
security.
    That's why it's baffling that the administration has 
decided that democracy is no longer a foreign policy priority. 
The budgets the administration has sent us seek to slash 
investments in diplomacy and development by a third.
    So many of the efforts we make around the world to 
strengthen democracy would be hobbled if Congress went along 
with these draconian cuts.
    Thankfully, Congress did not. In Nicaragua, for example, 
140 people have been killed in the last 2 months, primarily at 
the hands of President Ortega's thugs.
    The White House request for democracy assistance in 
Nicaragua for next year, zero. The three organizations 
represented today all rely on Federal grants to carry out their 
important work. Not if the administration gets its way.
    The State Department even removed democracy from its 
mission statement. What does that say about American values and 
American leadership?
    And on issues like this, leadership starts at the top. 
Democracy isn't just under attack in distant places. The 
Economist's Democracy Index recently downgraded the United 
States to flawed democracy as opposed to a full democracy.
    Just yesterday, the President tweeted, ``Our country's 
biggest enemy is the fake news so easily promulgated by 
fools.''
    Attacking the free press, the way I see it, is an attack on 
democracy. It's an attack on a fundamental right in this 
country.
    Our President has spoken glowingly of Vladimir Putin, 
Saddam Hussein, Erdogan, Duterte in the Philippines, Xi in 
China, and, of course, in Singapore, he had nothing but kind 
words for Kim Jong-un, a brutal dictator, a murderer, who rules 
over the most oppressive system in the world, all while 
attacking America's closest friends like Canada.
    So the world looks to us to set an example, to show 
leadership, to advance our interests in a way that respects the 
dignity and rights of all people, and right now, I don't 
believe we are sending the right message.
    So I look forward to hearing from our witnesses about how 
we can get back on track and revitalize democracy as part of 
our foreign policy.
    I thank you, again, Mr. Chairman, and I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    This morning, I am pleased to welcome our distinguished 
guests here on the panel, including Mr. Carl Gershman, who has 
served as president of the National Endowment for Democracy 
since its founding in 1984.
    He's a long-time friend of this committee. He's respected 
worldwide for his work, especially in his efforts to help 
peaceably end the Cold War and transition countries from behind 
the Iron Curtain to democracy, and he's done this through 
nongovernmental action.
    Before his time at NED, he was the senior counselor to the 
United States representative to the United Nations, where he 
worked on international human rights issues.
    Mr. Daniel Twining is the president of the International 
Republican Institute and previously he served as the counselor 
and director of the Asia program at the German Marshall Fund of 
the United States. He also worked here in Congress as a foreign 
policy advisor to Senator John McCain.
    And we have Mr. Kenneth Wollack. He is president of the 
National Democratic Institute, and he has co-edited the Middle 
East Policy Survey and written regularly on foreign affairs for 
the Los Angeles times.
    We wish him well on his retirement, but we are going to 
miss his active expertise on so many issues.
    We appreciate all of you being here today, especially given 
the contributions the three of you have made, and without 
objection, the witnesses' full prepared statements will be made 
part of the record.
    Members here will have 5 legislative, or calendar, days to 
submit statements and questions and extraneous material for the 
record.
    So if you would, Mr. Gershman, please summarize your 
remarks and after we hear from the panel we will go to our 
questions.

 STATEMENT OF MR. CARL GERSHMAN, PRESIDENT, NATIONAL ENDOWMENT 
                         FOR DEMOCRACY

    Mr. Gershman. Thank you, Mr. Chairman, and thank you for 
your long leadership and for your commitment to the cause of 
democracy throughout the world. We deeply appreciate it.
    I agree with you that democracy is on the ropes. Freedom 
House data and so forth, resurgent authoritarianism, democratic 
backsliding in many countries, the sharp power phenomenon that 
we have called attention to.
    But I want to devote myself this morning, if I may, to a 
more positive narrative, to take a look at something that I 
would call democratic resilience and also authoritarian 
vulnerability, and then what we can do practically to help, 
because I think it would be a mistake to assume that the 
decline of a democracy is inevitable or irreversible.
    I'd call your attention, for example, to some recent 
events, among them the remarkable democratic transition in 
Gambia; the fall of the corrupt Zuma government in South 
Africa; the stunning victory of democracy in Malaysia, and the 
freeing of opposition leader Anwar Ibrahim; the equally 
stunning triumph of democracy in Armenia; and the successful 
local elections in Tunisia that are, in my view, a decisive 
step forward in the Arab world's first democracy.
    These are just a few of the examples that I could give of 
recent democratic advances. There is Slovakia, interesting 
developments in Ethiopia. Even in a country like Uzbekistan we 
can see some glimmerings of some opening.
    They show that we should never underestimate the desire of 
ordinary people for freedom and dignity or the extent of the 
anger at corrupt and unresponsive government officials.
    On the question of authoritarian vulnerability, the Islamic 
Republic of Iran, for example, is a failed system, in my view, 
which was shown by the protests that swept over the country 
less than 6 months ago and that will certainly recur.
    The Bolivarian dictatorship in Venezuela and the Ortega 
regime in Nicaragua are also, in my view, failed systems, not 
to mention the Cuban and North Korean dictatorships as well as 
the stagnant Russian kleptocracy.
    China is projecting its military and economic power and 
threatening to spread its model of the totalitarian 
surveillance state.
    But while Xi's regime may claim performance legitimacy 
because of its economic growth, it lacks political legitimacy. 
Why must Xi prohibit what he calls historical nihilism, meaning 
any discussion of the Tiananmen Square massacre or the Maoist 
disaster like the Cultural Revolution and the Great Leap 
Forward?
    Why has it been necessary to eliminate a political 
dissident like Nobel Laureate Liu Xiaobo, to arrest hundreds of 
human rights lawyers, suppress the Christian house church 
movement in China and expunge the cultural and religious 
identity of Tibetan and Uighur minorities?
    By stoking nationalism to fill the void left by the death 
of Communist ideology, the regime just exposes its failure to 
develop values with broad appeal.
    Why, therefore, should we assume that the so-called China 
model will not also end up as Reagan said in that Westminster 
address ``on the ash heap of history?''
    We must not underestimate the immense challenge of building 
and consolidating stable democracies, and Congressman Engel 
referred to that.
    Democracy is hard work, especially in countries that are 
poor and that have experienced violent conflict, and it takes 
time and a great deal of effort.
    That means helping the people who share our democratic 
values and who want to build free societies governed by the 
rule of law is something we have to do.
    And so it is in that spirit that the NED and its institutes 
helps the kind of activists we honored last night, Mr. 
Chairman, and thank you for speaking at our event last night 
with the NED's Democracy Awardees who are fighting to rescue 
the people of North Korea from enslavement and it's remarkable 
work that they do and which we are supporting.
    It's why we have supported people like Cynthia Gabriel, one 
of the recipients of last year's Democracy Award, who led the 
effort to expose the massive corruption associated with the 
1MDB scandal in Malaysia--Raphael Marques, another award 
recipient last year, who has led the fight against equally 
massive corruption in Angola and who is now on trial for 
allegedly insulting corrupt officials.
    Other examples include the support that NED has given in 
Ukraine to the Anti-Corruption Action Center that has 
tirelessly led the campaign for the establishment of an 
independent anti-corruption court, and I am pleased to report 
that just last week the Ukrainian Parliament at long last 
approved legislation to create such a court.
    Another important victory just occurred in Afghanistan 
where a daily newspaper that we support published an 
investigative report on the illegal issuance of diplomatic 
passports to Afghan strongmen and the government immediately 
cancelled over 4,000 such passports in Afghanistan.
    The last example is the nonpartisan training conducted by 
four NGOs in Tunisia of new candidates who participated in last 
month's local elections. Of the 235 individuals who were 
trained, 112 won seats and 25 were at the heads of their 
electoral lists.
    These elections have made democracy in Tunisia more 
inclusive and responsive, dealing a blow to ISIS, which has 
been able to recruit young people in Tunisia who are frustrated 
over the failure of the revolution to produce meaningful social 
and economic change.
    Mr. Chairman, I could go on and give many other examples of 
dedicated NED grantees whose work is advancing American values 
and security around the world.
    Our job is to empower such brave people and to let them 
know that they are not alone because they have the support of 
the American people and the American Congress, of course.
    This, I believe, is what Reagan meant when he said at 
Westminster that as important as military strength is, and I 
quote,

        ``The ultimate determinant in the struggle that is now 
        going on in the world will not be bombs and rockets but 
        a test of wills and ideas, a trial of spiritual 
        resolve, the values we hold, the beliefs we cherish, 
        and the ideals to which we are dedicated.''

    We can win this test of wills and ideas if we have the 
spiritual resolve to fight and to stand with the people and 
support people around the world who are struggling to build 
democratic societies.
    If we do this, we will make the world a safer and more 
peaceful place and the values upon which this Nation is founded 
will be strengthened as well.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gershman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, Carl, for that testimony today. 
Thank you.
    Dan Twining. Say, Dan, turn that up or hit the button. 
There we go.

   STATEMENT OF MR. DANIEL TWINING, PRESIDENT, INTERNATIONAL 
                      REPUBLICAN INSTITUTE

    Mr. Twining. Got it. Got it.
    Thank you to all of you, the chairman and the ranking 
member, so many of you and so many in this body, for 
representing not only our country's interest out in the world 
but the values that reinforce those interests, and I would like 
to argue that those aren't separate things but one and the 
same.
    Last month, IRI honored Jim Mattis and Nikki Haley at our 
annual Freedom Dinner. We appreciated Chairman Royce's 
participation, and other members of this committee.
    Secretary Mattis shared an observation that speaks to the 
heart of why America supports democracy in the world. Here's 
what he said:

        ``I have many privileged glimpses into the human 
        condition, but I've never once seen human beings flee 
        the freedom of speech. I never saw families on the run 
        from the free practice of religion in the public square 
        and, as a young Marine, I never picked anyone out of a 
        life raft on the ocean, desperate to escape a free 
        press.''

    By nurturing democracies abroad, by sharing best practices 
in responsive inclusive and just governance, IRI prepares the 
soil for that flourishing.
    Now, Secretary Mattis is no one's idea of a starry-eyed 
idealist. His military experience led him to the conclusion 
that American power derives not just from our martial prowess 
but from our democratic ideals. Dictators and extremists who 
deprive their people of basic rights inevitably create problems 
that endanger our security at home.
    I would like to focus on the role of democracy assistance 
in managing four key threats to American security--violent 
extremism, uncontrolled mass migration, the Kremlin's hybrid 
warfare, and Chinese sharp power.
    The first challenge is countering violent extremism. As the 
national security strategy points out, violent extremists 
groups ``thrive under conditions of state weakness and prey on 
the vulnerable, as they accelerate the breakdown of rules to 
create havens from which to plan and launch attacks on the 
United States,'' and we can't simply fight our way out of this 
problem.
    Democracy assistance is a vital tool on the preventative 
side, helping create conditions in which populations vulnerable 
to recruitment by extremists have peaceful outlets to express 
grievances and hold a stake in their societies.
    We at IRI carry out this work around the world from Nigeria 
to Indonesia to Bosnia. Our approach builds on public opinion 
research, leverages relations with political and civic actors.
    We really work to build local community resilience by 
directly engaging with vulnerable populations, particularly 
youth.
    The second challenge is uncontrolled mass migration. I am 
afraid we are living through the biggest refugee crisis since 
World War II. Conflicts in the Middle East are destabilizing 
not only that region but our core allies in Europe.
    Lawlessness in Latin America and Venezuela and Central 
America is producing migration, fuelling transnational crime, 
including human trafficking and the drug trade, with desperate 
populations fleeing the breakdown of law and order in search of 
a decent life elsewhere.
    The fallout from uncontrolled mass migration for U.S. 
interests is enormous. I don't need to tell you. To address the 
drivers of this migration that so often washes up on American 
shores, IRI works with local and national governments as well 
as civic groups in Central America to strengthen the 
institutions that deliver citizens security so that people are 
less likely to flee their countries and more likely to build 
successful societies there at home in their own countries.
    The third challenge is the Kremlin's hybrid warfare. Russia 
and China are looking to export their authoritarian models to 
undermine U.S. leadership and alliances.
    In Europe, the Kremlin is deploying a sophisticated 
information warfare campaign to undermine democratic 
institutions, erode citizen trust in democracy and wedge apart 
the transatlantic alliance.
    This form of warfare is particularly insidious--this 
political warfare--because it uses core features of democracy 
against us--exploiting our free media, manipulating false 
information, undermining confidence in electoral systems.
    IRI's Beacon Project is engaged in a big line of work to 
leverage our relationships for European political parties and 
civil societies groups to track Russian misinformation 
including in many local languages and then to coordinate 
political responses to that.
    The fourth and final challenge is Chinese sharp power. The 
Chinese Communist Party uses sophisticated tactics to build 
political influence around the world. Their goal is to 
challenge and ultimately supplant America's global leadership.
    Their authoritarian political model and leveraging of vast 
economic resources pulls smaller countries into China's orbit. 
These activities contribute to political corruption and state 
capture by China, risk the creation of an expansive hostile 
sphere of influence that's inimical to American interests.
    Fragile democracies are most vulnerable. Helping U.S. 
partners build political resiliency to protect their own 
sovereignty, to stand on their own two feet, and not be 
captured by a foreign authoritarian power is a vital U.S. 
interest, I would argue, and our work works with many countries 
to help protect them to prevent China suborning their 
democracies.
    I would also just mention some other opportunities. Anti-
corruption programs that level the playing field for U.S. 
business in the world, programs on youth and women's 
empowerment both speak to rising generations to include them in 
politics and, of course, to get greater female leadership in 
politics to stabilize and build peace.
    I would just close with the thought that we do face a 
really dangerous world. It's perhaps more complicated and 
dangerous than any time including during the Cold War.
    I think it can be tempting to take refuge in a believe that 
democracy promotion somehow is a luxury we can't afford. But 
democracy assistance is not about making ourselves feel good.
    It's not just about doing the right thing. It's a way of 
advancing American interests and American influence in a 
contested world.
    So thank you all for your continued support for this vital 
work.
    [The prepared statement of Mr. Twining follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thanks, Dan.
    Ken.

     STATEMENT OF MR. KENNETH WOLLACK, PRESIDENT, NATIONAL 
                      DEMOCRATIC INSTITUTE

    Mr. Wollack. Chairman Royce, Ranking Member Engel, and 
members of the committee, I appreciate the opportunity on 
behalf of NDI to speak on democracy promotion efforts.
    Mr. Chairman, your leadership will be sorely missed, not 
only in the halls of Congress but in many countries, 
particularly in Africa where your voice and engagement has made 
a real difference.
    The notion that there should be a dichotomy between our 
moral preferences and our strategic interests is a false one. 
Our ultimate goal is a world that is secure, stable, humane, 
and safe, where the risk of war is minimal.
    Yet, the hot spots most likely to erupt in violence are 
often found in areas of the world that are nondemocratic--
places defined by the Defense Department as the arc of 
instability.
    These are places that experience ethnic conflict and civil 
war, they generate refugee flows across borders, they are 
places where terrorists are harbored and illegal drugs are 
produced. And in this interdependent world, what happens within 
borders of nations have regional and sometimes global impact.
    The 2018 National Security Strategy, the National Defense 
Strategy, the Worldwide Threat Assessment by the U.S. 
intelligence community, all point to efforts by Russia and 
China to propagate their authoritarian models as a threat to 
our interests.
    A proper response calls for a democratic stimulus, not a 
retreat, and the best way to counter this new threat is not to 
confront it unilaterally but to build stronger global alliances 
that support an alternative model based on transparent and 
accountable government.
    We have witnessed more than a decade of democratic 
recession. Autocrats have become more aggressive and new 
fragile democracies are failing to deliver.
    Even more established democracies have been beset by 
political polarization and growing public discontent. 
Authoritarian regimes are using digital tools to advance their 
interests including electoral espionage and the dissemination 
of disinformation to skew electoral outcomes, disrupt 
democratic discourse, discredit institutions, and fuel ethnic 
and social divisions.
    NDI has responded by providing cybersecurity support, 
assisting efforts of civic, media, and political groups to 
detect, expose, and combat this information, and conducting new 
types of public opinion research to identify populations that 
are most susceptible to Russian disinformation and develop 
messages that can build resilience.
    In cooperation with IRI and NED, NDI is helping to launch a 
new effort with democracy groups, civil society organizations, 
civic tech partners, political parties, and a global network of 
4 million citizen election monitors to interact more regularly 
with the technology companies.
    Among other purposes, this Design for a Democracy Coalition 
will identify disinformation that subverts democratic processes 
so tech companies can find speedy resolutions.
    Now, despite recent declines in democracy, there is another 
more positive story. Public opinion polls in every region of 
the world show large majorities agree that democracy is the 
best political system.
    Democratic change and rising citizen demand for democracy 
in such diverse places as Ethiopia, Armenia, Malaysia, 
Slovakia, and Nicaragua are but a few examples in recent 
months.
    Some have argued that the Arab Spring unleashed a new era 
of instability in the Middle East by toppling repressive but 
so-called stable regimes.
    However, the idea that autocracy equals stability collapses 
under scrutiny as the remaining supposedly stable regimes are 
increasingly the locus of conflict.
    In contrast, those places that are going through democratic 
transition like Tunisia or political liberalization like 
Morocco and Jordan are better able to address economic 
challenges or threats from extremist ideologies and groups.
    I would like to highlight two democracy efforts in 
challenging environments--Ukraine and Syria--which is seemingly 
one of the most unlikely places on earth to find good news on 
this front.
    Ukraine faces severe economic problems and deeply-rooted 
corruption, not to mention occupation in the south and a war in 
the east.
    However, NDI's research shows that Ukrainians are virtually 
united in their view that democracy is the best guarantor of 
their independence and sovereignty.
    Ukrainians can point to concrete achievements in recent 
years. These include the emergence of new political parties 
that have national reach and are focused on citizens they 
represent rather than on oligarchs who would finance them.
    Brought together by NDI in partnership with the European 
Parliament, party factions in the Rada are overcoming deep 
fragmentation to agree on procedures that will make it easier 
to build consensus around reforms.
    In NDI programs alone more than 45,000 citizens have 
engaged directly in the national reform process and are 
reaching more than 1.3 million citizens through the media.
    These are the kinds of bottom-up changes that, given time 
and continued support, can put down deep democratic roots.
    Another story of democratic resilience is unfolding in 
Syria. In northern Syria, citizen groups are prioritizing 
community needs and local administrative councils are 
responding by providing critical services.
    Fifty NDI governance advisors are working each day in 34 
locations to advise citizen groups and administrative councils 
and bringing them together to solve problems.
    Courageously, these groups and counsels have challenged 
extremist groups, which have sought to establish parallel 
governing structures.
    As one regional news outlet noted, ``You may think Syrians 
are condemned to an unpleasant choice between Bashar Assad and 
the jihadists. But the real choice being fought out by Syrians 
is between violent authoritarianism on the one hand and grass 
roots democracy on the other.''
    Mr. Chairman, the citizens of our country have held the 
conviction that to secure the blessings of liberty for 
ourselves and our country, we must establish government that 
derives legitimacy from the consent of the people.
    We received the help of others in our founding and have 
assisted those around the world who step forward, sometimes at 
great risk to their own countries and to their personal lives 
to promote, establish, and sustain democracy.
    Our Nation has benefited from the peace that global 
democracy produces and the economic opportunities that it 
creates.
    Thank you very much.
    [The prepared statement of Mr. Wollack follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  
                              ----------                              

    Chairman Royce. Thank you, Mr. Wollack.
    I guess the dichotomy here is that your data that you're 
expressing shows that in terms of support for grass roots 
democracy worldwide that's on the upswing in terms of how 
people feel--what people want to see, and the Freedom House 
statistics then reflect the sales pitch of authoritarian 
regimes, in particular Moscow and Beijing and their efforts to 
convince other strong heads of state to move toward their 
model.
    So I will just ask you this. I've traveled throughout 
Europe and I've seen firsthand the very powerful impact that 
information can have as well--and I saw that in 1985 in East 
Germany with our broadcasts and how impactful or inspirational 
it was.
    But I've also seen that damaging power of disinformation 
that Russia is actively manipulating in order to sow chaos and 
in order to push an anti-Western agenda in those frontline 
European states and, frankly, to push it here.
    And so you're in these countries. How effective are our 
international broadcasting, which is something that Mr. Engel 
and I have been trying to reform--how effective is that in 
combatting Russia's disinformation campaigns abroad and are we 
coming near to neutralizing this threat or is this continuing 
to advance?
    And so, Carl, if I would have your observation.
    Mr. Gershman. When we published the Sharp Power Report in 
December, we were calling attention to this problem, and it's a 
growing problem.
    People are aware of it now, especially because of what 
Russia has been doing but also and especially because of China, 
and when the Economist magazine picked up the sharp power 
report they focused more on China, whose efforts are enormous 
in this area.
    And I think the importance of having that concept, Mr. 
Chairman, is that it helped people understand the nature of the 
problem. If we called it soft power they wouldn't understand--
that they would think it was pretty much what we do.
    But if you call it sharp power, you understand that you 
have really undemocratic hostile powers who are using 
information to penetrate, to manipulate, to undermine, to 
control, and that's basically what we have.
    And radios are, obviously, one important instrument, not to 
counter that in terms of building a defense against 
disinformation but to project a positive message.
    But you've got to build a defense against it and a lot of 
the groups that we helped stop fake news in Ukraine and other 
groups like that are being able to identify fake information.
    We have a dialogue--a very ongoing dialogue with the 
internet companies to take down a lot of incitement, a lot of 
fake news.
    We are connecting our grantees with the internet companies. 
We have groups like Bellingcat, which is an investigative 
journalist group. They use open source information. But they've 
identified the Russian general who provided the missile that 
shot down the Malaysian airliner.
    You have got to fight back. You need a good defense but you 
need a good offense and we have to understand that we don't 
live in a world where everybody loves us or loves the values 
that we stand for.
    There are people who are against those values and we have 
developed the capacity within the framework, obviously, of our 
democratic values to defend those values and to fight back 
against the attacks upon us.
    Chairman Royce. And Ken, what else could we be doing?
    And I've got to tell you, in terms of one of the 
disappointing things across much of the world is watching 
Beijing also sell this concept that rather than democracy or 
independent courts or bolstering civil society you'd need a 
strong authoritarian model.
    Mr. Wollack. Let me say the Russian cyber warfare is quite 
different than the Soviet Union's propaganda. The Soviet Union 
propaganda was that our tractor is better than your tractor.
    Nobody believed it. And what makes the Russian efforts so 
effective is they're playing on fertile territory. They're 
reinforcing preconceived notions that people have about their 
own political institutions.
    So, first and foremost, the institutions of democratic 
governance, particularly in places like the Balkans and eastern 
Europe need to be shored up. There needs to be reform and 
modernization efforts and this is one of the most effective 
ways to respond to disinformation.
    Secondly, radio is extremely important. But this a daily 
fight on the ground.
    Chairman Royce. A social media fight?
    Mr. Wollack. Yes. To give you one example, the Democratic 
Party of Serbia, 2 weeks before the local elections, the 
Russians--presumably the Russians--had hacked their Facebook 
page, and put horrible content on it.
    The hackers then contacted Facebook, told them to look at 
the site. Facebook immediately took down the Facebook page.
    Now, the party didn't know who to contact. They had no 
contact with Facebook. They were able to contact us. Our office 
in Silicon Valley managed to reach the Facebook executives. 
They immediately took it down.
    But this is playing out dozens, hundreds, and thousands of 
time all over the world, and not just propagated by the 
Russians and the Chinese. It's propagated by authoritarian 
leaders all over the world. Hun Sen of Cambodia, Duterte--the 
majority of the news about them are generated by bots.
    So this is now a tool that everybody is using. Some of it 
external threats, some of it done internally by non-democratic 
forces.
    Chairman Royce. Thank you, Ken.
    Eliot.
    Mr. Engel. Thank you, Mr. Chairman. Let me say to all three 
of you again that I so much admire the good work that you do 
and the organizations you all represent.
    They are three outstanding organizations, and those of us 
who have been on this committee for many, many, many years are 
very aware of the fine work you do.
    So I want to reiterate that and thank all three of you.
    Mr. Chairman, before I ask my question, I would like 
unanimous consent to enter into the record a document by the 
Democracy in Europe Working Group, signed by over 64 former 
administrations officials and Members of Congress, democracy 
experts, and human rights activists, which lays out growing 
concerns regarding democratic backsliding in Europe.
    Chairman Royce. Without objection.
    Mr. Engel. Thank you, Mr. Chairman.
    I want to ask my first question involving something I said 
in my opening statement and I've been saying for the past year 
and a half on this committee, as have we all on both sides of 
the aisle.
    That's the budget that's, woefully, inadequate.
    Let me start with you, Mr. Gershman. We understand the 
critical importance of the NED's work and that of NDI and IRI 
around the world.
    The budget proposal for fiscal year 2019 requested a $67 
million for NED, which is a 60 percent cut from the amount, 
which is $170 million that Congress has appropriated yearly 
since fiscal year 2016.
    Not only did the fiscal year 2019 budget of the 
administration gut NED's funding, they also took aim at 
Congress' funding of your four core institutes--again, NDI, 
IRI, the Center for International Private Enterprise, and the 
Solidarity Center.
    Let me ask, what effect would the drastic budget proposal 
have on your ability to fund democracy activities and if the 
budget became law what would have to be cut and how do you 
prioritize when the needs are so great?
    Mr. Gershman. Thank you very much for that question.
    There are, obviously, two fundamental problems with the OMB 
budget request for fiscal 2019--the amount and separating us 
from the four institutes.
    And both of these are devastating. I don't even want to get 
into now what we would have to cut. They're devastating--
utterly devastating. It would virtually kill the whole program, 
and it's based upon, in my view, just a failure to understand 
what we do and the value of what we do.
    And I should point out to you, Congressman Engel, that we 
are in close touch with the NSC, with OMB, to try to talk about 
these issues. It's partly an educational process. It's also 
political, and to try to explain why NED is both effective and 
cost effective, I think, because we have a multi sectoral 
structure. It's also labor and business that is part of this in 
addition to our political parties, with the civil society 
groups that the NED supports directly, which is a broad and 
extremely effective and also cost-effective operation--cost-
effective because we are not imposing things on people. We are 
supporting bottom-up processes. We are responding to demands 
that are on the ground, finding the best groups and helping 
them.
    And so this is something that works and I think Congress 
understands this. As I look around this committee, Congress 
understands that this is something effective, and in a way, 
we've always been an institution of the Congress.
    I look at Dante on the wall and Tom Lantos and Henry Hyde, 
Ben Gilman, and Ileana Ros-Lehtinen. You people have understood 
what this is all about from the very, very beginning.
    But we do have a problem now in terms of explaining this 
and educating a new generation who don't necessarily have the 
same history, and this is something we have to do, and things 
like we did last night when we brought these leaders of four 
North Korean NGOs to the Congress and got them around so people 
could meet them to see what they do with the defector 
organizations--North Koreans who've defected from North Korea 
who are now working both to rescue people and also to reach 
into North Korea with information, breaking down the 
communications blockade--the information blockade that the 
regime in North Korea has established. When people understand 
this in concrete terms and see how far small grants can go in 
assisting people who are on the front lines of the struggle for 
freedom, I believe we are going to get that support and we just 
have to keep fighting that.
    Mr. Engel. Thank you.
    Several formerly democratic countries, as I mentioned in my 
opening statement have moved in a decisively autocratic 
direction over the last several years. From Turkey to Venezuela 
to Russia, authoritarian leaders are diminishing democratic 
space, squelching the free press, and undermining the 
independence of their judiciaries.
    So let me ask Mr. Twining and Mr. Wollack--can your 
organizations function in these and other countries which have 
backslid so far? Is there ample latitude for effective 
employment of democracy promotion in places like these?
    Mr. Twining. Sir, there is. Some of the work has to be 
offshore. Obviously, all of it is in very tough conditions. We 
also need to play a long game. I mean, I will give you another 
example.
    You mentioned some back slipping. But in Malaysia, IRI has 
been working with the opposition there since 2002. Malaysia was 
essentially a one-party majoritarian state. The ruling party 
had ruled since 1957. It had gerrymandered all the districts, 
given itself every advantage. But in this last election a month 
ago, the opposition won for the first time in 60 something 
years, and that was an example of playing the long game, right.
    We, the United States, supported a democratic opposition 
that is now in charge of this very strategic country right 
there on the front lines of the South China Sea, right there on 
the front lines of the Islamic world's intersection with the 
rest of Asia, and that's good for America.
    So we look at a country like Russia and we see a leader who 
looks very strong but, frankly, who is very brittle and, 
frankly, quite insecure, and we know that Russians would like 
to have a choice and a different future--a much more European 
and prosperous than he can offer them.
    Mr. Engel. Mr. Wollack.
    Mr. Wollack. Let me just say, operating in the so-called 
semi-authoritarian regimes in which you have the forms of 
democracy. You have elections. You have political parties. You 
have civil society groups, some media, but in fact one party, 
one individual, one family controls all aspects of society and 
all political institutions.
    In many of these places, this is the most challenging 
environment to work and what we do is we work in these 
environments with civil society, with political actors and find 
reformist elements within the ruling elite and work with them.
    Sometimes, however, we become the canaries in the coal 
mine. When the governments want to crack down, fear any 
diffusion of political power, we become the victims of that 
along with those on the ground in places like Azerbaijan and 
places like Russia.
    And as Dan said, we have begun to work offshore in these 
places using long-distance learning, bringing people out. We 
use technology so they can share information among themselves, 
and sometimes, in places like Belarus, you can reach more 
people this way, too, where literally hundreds of thousands of 
people are being reached by these methods.
    But it's a challenge. But things change. Nothing is 
constant. In Armenia, for example, now there is a welcoming and 
an opening for the international community to return, to help 
institutions--newly-created institutions, helping the 
government reform, to communicate. And so, ultimately speaking, 
we play the long game in all of this. We understand that this 
is a process. It's not a destination and democracy isn't 
linear. But I think there have been many places where we were 
not welcome but we have returned as openings took place.
    Chairman Royce. Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce and 
Ranking Member Engel, for your leadership in holding this 
important hearing.
    Ted and I, in our Middle East and North Africa 
Subcommittee, held a similar hearing last year when we heard 
from IRI and NDI, who are with us today, as well as from IFES 
and Freedom House, and these organizations make up four major 
implementers of U.S. democracy and governance assistance.
    I am grateful to each and every one of them as well as to 
NED for their constant efforts not just in the Middle East but 
every place where freedom and human rights are under attack.
    One of my biggest concerns is the increasing amount of 
collaboration between repressive regimes as dictators and their 
accomplices get together and they share best practices and 
techniques for crushing dissent.
    We see it in places like Egypt where Sisi is using similar 
tactics deployed in other countries and implementing choking 
restrictions on NGOs on foreign aid and the media and we see it 
in places like Nicaragua, and thank you to all of you who have 
brought that up, where the Ortega regime is not only executing 
Cuba's play book but staying in close contact with its 
operatives to co-opt institutions and repress the Nicaraguan 
people. And this collaboration problem is only going to get 
worse in the years ahead. I am concerned that we either aren't 
recognizing it or we are failing to give it the attention that 
it deserves. We cannot afford cuts to democracy and governance 
programs right now or, when it's appropriated, fail to 
implement programs because of directives from the White House 
or Embassies abroad.
    So I have two questions for the panel. What can you tell us 
about our Embassy in Lebanon's decision to cancel or refuse to 
renew U.S.-funded projects in the lead-up to the election and 
what impact do you think that had?
    And on Nicaragua, despite being designated for democracy, 
much of our aid ends up funding programs barely related to 
democracy and governance, if at all.
    What is your experience with U.S.-funded aid projects in 
Nicaragua and how can we do better?
    Thank you, Mr. Chairman.
    Mr. Wollack. In the case of Nicaragua, we have been working 
there for the past 5 years--well, going back to earlier times 
but in our latest effort we have been working on youth 
leadership programs and have worked with more than 8,000 youth 
on a very extensive course work and academies to develop youth 
engagement, and while, obviously, we are not training people to 
engage in revolutionary activities or regime change, obviously, 
youth is playing a prominent role in the demonstrations that 
are taking place now.
    Our programs, and I believe the programs of IRI, have been 
supported by both the NED and USAID, and it think that there is 
a commitment on the part of USAID to continue this effort.
    It's a very tense and difficult time right now, but I think 
there is a commitment. In terms of the Lebanese elections, we 
were in Lebanon for the elections with an international 
observer delegation.
    This was funded by the National Endowment for Democracy. 
Funding was not available by USAID but the State Department and 
the Embassy and the USAID mission were quite supportive of that 
effort when we were in-country and the work that we did 
preceding the election.
    Mr. Twining. So, Congresswoman, my predecessor, Mark Green, 
is running USAID and Mark brings the insight, which I don't 
think is that surprising, but which apparently is an insight 
that if you don't have some decent governance and some 
institutions, most U.S. foreign assistance is not spent well in 
those countries.
    All these academic studies have been done showing that most 
development assistance, when it goes to corrupt kleptocratic 
badly-run countries, is wasted. It goes into elite pockets, et 
cetera, as you know.
    So another way to think about this democracy in governance 
work, whether it's in Nicaragua, whether it's in Lebanon, 
whether it's elsewhere, is that it basically offers you a real 
return on the other investments one is making in that country--
that America is making in that country, and that if you don't 
have decent governance and some degree of democratic rule of 
law, you're not going to get very far with all your other 
efforts at engagement whether they're military, whether they're 
business, et cetera.
    In Lebanon, I will just say that another way to think about 
this work is there are lots of other foreign powers seeking to 
meddle and subvert and determine outcomes.
    We are not trying to determine outcomes. The work we are 
doing in the democracy community is to create a level playing 
field so the people's choice actually comes out in a vote or in 
a political process.
    But, gosh, in Lebanon you had the Saudis, you had the 
Iranians--I mean, you had all of these actors working to 
influence outcomes and that's something Americans should 
reflect on is we need a level playing field.
    Mr. Wollack. I should just add one thing and that is that 
Hugo Chavez once famously said that he was not the cause--he 
was the result. He was the result of failed political 
institutions in Venezuela.
    It wasn't that there were insufficient civil society 
organizations. The political parties, the legislature, were 
seen as being out of touch and corrupt, and often times when 
that happens and there's a crisis of confidence in political 
institutions, people either go to the streets or they vote for 
a populist leader who promises easy answers to very complex 
issues.
    And so the question in these places--and Venezuela used to 
be the teacher of democracy in the hemisphere--so the question 
becomes how do these institutions reform and modernize, and not 
that they're going to be the most popular institutions in the 
country but how do you avoid a crisis of confidence--how do you 
engage citizens--how do you promote women's political 
leadership, marginalized communities, youth engagement--all 
these things that give people a stake in the system. And that 
is the challenge for political institutions in every region of 
the world.
    Chairman Royce. We go to Mr. Brad Sherman of California.
    He yields to Mr. Greg Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    First, I just am delighted to have these three gentlemen 
before us today, congratulating Mr. Wollack on 35 years of 
great service to our country. I've been with NDI on various 
election-monitoring missions and seen the great work that you 
have done.
    Mr. Twining, and I've known what IRI is doing and I've seen 
what you're doing specifically in Colombia with African-
Colombians and working with the Ban Kata and making a 
difference in developing democracy there.
    And Mr. Gershman, I am a former board member at NED so I've 
seen firsthand the work that you and your dedication and the 
bipartisan board of NED collectively working together to try to 
make sure that we have a better world for all of us.
    So I thank all three of you and the organizations that you 
represent and have led for your work and your dedication to our 
country and to our world, because it is really, really, really 
needed and I thank you very much.
    Unfortunately, I am concerned about the data and I know 
that you all have put a positive spin on it, which is what you 
do, to try--because you're trying to make sure the world is 
better.
    But I think Congress has gotten it right, when I look at 
Congress and what they have put together--there's an 
appropriation of $170 million for NED. But yet, the 
administration's budget was $67 million, as Mr. Engel has 
talked about. That gives me grave concern.
    In fact, when I look at the fact that the current 
administration, the Trump budget has slashed all democracy-
promotion funding by more than half, I see the State Department 
has been just about hollowed out, and we hope that Mr. Pompeo 
can bring back some of those individuals in the workforce.
    And then there's a proposed massive international affairs 
budget--their budget is being cut. I think that the committee 
gets it. I know that the chairman of this committee gets it. I 
know the ranking members and many others--we are going to work 
collectively together to make a difference because we 
understand the work that you do.
    I think with Mr. Gershman, who indicated that education is 
important now because of a different generation and different 
folks and, unfortunately, a different administration also, so I 
think--and part of that, as I travel particularly in Europe, as 
I am the ranking member on the Subcommittee on Europe, Eurasia, 
and Emerging Threats and I've gotten folks coming back and 
forth, I've been hearing a lot from our European allies that 
the President's embrace of strongmen and shunning of democratic 
allies and his attacks on our own democratic process and 
institutions, it's damaging us. So but maybe what we can do--
and I will start with you, Mr. Wollack--could you please 
address the difference between your work, democracy promotion, 
and meddling, because some say that what we are doing is 
meddling and getting involved.
    Can you explain the difference between those things?
    Mr. Wollack. Well, this has been part of the Russian 
propaganda campaign as well. Russia, as the United States is, 
is a member of the OSCE--the Organization for Security and 
Cooperation and Europe.
    The OSCE was established based on democratic principles 
that all member states must abide. So when we are working in 
countries, particularly in that region of the world, 
Congressman, we are working under the principles established by 
the OSCE, which require members states to adhere to those 
principles.
    Our engagement is not to spread falsehoods. It's not to 
create fake news. It's not to try to disrupt the process. It's 
not to try to spur conflict in countries.
    What we are trying to do is promote the principles, values, 
processes, and institutions that are enshrined in an 
intergovernmental organization and our work is to try to help 
people engage in the political process.
    It's to help people monitor the political process, which is 
their right. It's about engagement, it's about monitoring, and 
it's about helping promote the integrity of the process.
    Russian efforts are exactly the opposite. It's designed to 
subvert a process in these countries and try to skew outcomes 
and it's a little bit like a doctor--one doctor who prescribes 
poison to a patient and another doctor who prescribes 
lifesaving medicine to a patient.
    I mean, they're both being prescribed by a doctor but one 
kills and one, hopefully, helps to cure.
    Chairman Royce. We'll go to Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
am perplexed by some of the testimony today and I will have to 
say that over the years one of the greatest things I've been 
proud of is Ronald Reagan's making human rights and democracy a 
major, major part of his administration's goals.
    But let us remember that Westminster speech--I remember it 
very well--I worked in the speech writing department during 
that time and I am not taking credit for the speech, however--
let me note that.
    But in pursuing democracy and human rights and, basically, 
we needed to make sure that we did not and it was very clear 
that we did not take away and work against those regimes that 
were imperfect or had problems--democratic problems in a way 
that it would result in strengthening the Soviet Union and 
permit Communist governments to exist where flawed, not maybe 
authoritarian governments.
    In fact, Carl and I know very well your former boss, Jeanne 
Kirkpatrick, who was one of my great heroes and still is, 
differentiated between authoritarian and totalitarian 
governments.
    And what I think what we've gotten so far away from Jeanne 
Kirkpatrick, what we have are policies that undermine 
democratic governance, and to the benefit of what is our major 
threat today.
    Ronald Reagan wanted to use, and what worked, was make sure 
we supported democracy and human rights to defeat the major 
threat of the day, which was Soviet communism.
    All right. Today, radical Islamic terrorism is the major 
threat to Western civilization today, and if we end up 
undermining governments like in Egypt--undermining Egypt right 
now, as imperfect as General Sisi is, if we end up with a 
government that is controlled by radical Islamic terrorists we 
have done a great disservice to our people and to the world.
    We can speak of all these cliches--we all believe in those 
phrases that our Founding Fathers came forth and put forth to 
the countries and the people of the world--life, liberty, and 
the pursuit of happiness given to all human beings.
    We believe in that. But if we are so arrogant that we 
interfere with other people's democratic process because they 
are flawed and it results in more radical Islamic terrorism or 
Chinese hegemony, they we have done a disservice to the world 
and I see that creeping into our policies.
    I don't know why Indonesia was selected. Isn't our 
involvement in the Indonesian Government--isn't that meddling? 
I mean, Indonesia has a somewhat democratic government, and I 
see these complaints coming from all over the world now about 
how--did we or did we want involve ourselves heavily to 
undermine the democratically-elected government of Yanokovych 
in Ukraine? And what did it bring us? It brought us turmoil and 
conflict--that if we would have waited and let that government 
be elected, because of its flaws unelected, we would not be 
this situation today where the world is more likely to go into 
conflict because of that. I don't believe the Russians would 
have invaded Ukraine had we not arrogantly involved ourselves 
to overthrow that democratically elected government in Ukraine.
    And what we need to make sure is--we had a comment about 
the Arab Spring. I will tell you this about the Arab Spring. 
The Arab Spring may have brought more threat to this world than 
freedom.
    I remember very well the Shah of Iran, who was, yes, had a 
very flawed government. But you know what? We should have stuck 
by the Shah of Iran and it would be a more peaceful world and a 
world with more freedom in the world had we stuck with the Shah 
of Iran rather than cut him off at the knees.
    And we see that with Mubarak in Egypt. When we cut Mubarak 
off, we ended up with a government leader who was a follower of 
the Muslim Brotherhood.
    These things--look, if we are Americans we believe in 
freedom and we believe in democracy. But we better make sure 
that we--you know, what Ronald Reagan did when he gave that 
Westminster speech. We cannot permit that to allow the greatest 
enemy of freedom and democracy to come to power in various 
countries.
    So I've had my say. I know I am making everybody mad at me 
but I had to say it.
    If the chairman will allow, you certainly will have any 
amount of time you want to respond what I just said.
    Mr. Gershman. I feel like, if I may, I can call you Dana 
and Ambassador Kirkpatrick will be Jeanne in this discussion, 
because this is a discussion among ourselves and it's a long 
discussion.
    Jeanne Kirkpatrick wrote that article back in 1979, 
``Dictatorships and Double Standards,'' where she made the 
distinction you're talking about.
    Different period now, and Jeanne was a member of the IRI 
board--very close friend when the NED was created and she 
supported completely what we did and I think she did because 
what we do is very pragmatic. Dictatorships and double 
standards are based upon the idea that maybe there are only two 
choices, and I think what NED does is it offers a third choice 
and it offers a third choice by trying to work with whatever 
openings exist in authoritarian countries to move them toward 
democracy.
    And my great fear, Congressman, is that if that doesn't 
happen they will become targets for anti-democratic elements. 
And I gave a talk, which I would like to share with you, 
recently to the Potomac Institute on Democracy and Terrorism 
where I think that--and I quote an Israeli scholar in that talk 
on terrorism who says that the best way of fighting terrorism 
is through democracy, and there's a lot of evidence for that.
    And what I fear, I spoke about this in the talk--is that 
the way Sisi is opposing the Muslim Brotherhood and the 
extremists is actually making the problem worse.
    In the prisons where ISIS and the Muslim Brotherhood are 
recruiting it's making the problem worse, and the example I 
gave in contrast to what Egypt is doing is Tunisia.
    In January, we ran an article by two IRI people in the 
Journal of Democracy who were saying that because the 
revolution in Tunisia did not produce immediate economic 
benefits for the people it became a fertile recruiting ground 
for ISIS, okay, and that was a problem.
    And I realize that these situations can become problems, 
but what Tunisia has done now--and I refer to this in my 
testimony--it's both fighting terrorism and controlling 
terrorism--there have been no terrorist incidents in Tunisia in 
the last 3 years--but also to deepen and broaden and make more 
inclusive democracy.
    And I think a tremendous step forward in the Middle East's 
first Arab democracy was taken on the May 6th local elections 
in Tunisia and where we all were involved in that, which, I 
think, the majority of candidates were young people in those 
elections.
    And through those types of elections, you have made 
democracy meaningful to people. You have told them that their 
voices count, and I think that is the best way, ultimately, to 
fight terrorism.
    I don't disagree with you about the problem of terrorism 
but you have to be smart in the way you fight it and I think 
the best way to fight it is by deepening and broadening 
democracy wherever we can.
    Chairman Royce. Mr. Brad Sherman of California.
    Mr. Sherman. I think we need to avoid a belief that what we 
do in Washington controls the whole world and everything is all 
about us. The Shah fell--I am not sure there's anything that 
happened in Washington that caused that or could have prevented 
it.
    Mubarak fell trying to install a corrupt son to be his 
successor. I am not sure there's anything that could have 
happened in Washington that would have preserved him.
    It meets the psychological needs of both the Iranians and 
the Americans to say that in the 1950s we saved the Shah. That 
massively overstates our importance. But overstating our 
importance makes us feel good and overstating the degree to 
which Iran is subject to foreign manipulation meets the 
psychological needs of many Iranians.
    On North Korea, I will ask the witnesses or at least 
whoever answers first, is there a more repressive regime in the 
world? Can anyone name one?
    Mr. Gershman. No, this is----
    Mr. Sherman. Okay.
    Mr. Gershman [continuing]. The most repressive regime in 
the world.
    Mr. Sherman. To what extent do we undercut our credibility 
by not even mentioning how the North Korean people are treated 
when our President is in Singapore?
    Mr. Gershman. Congressman Sherman, we honored yesterday in 
the Congress four North Korean groups--groups working on human 
rights in North Korea and it was a great celebration about----
    Mr. Sherman. I am not asking about your wonderful 
organization.
    Mr. Gershman. One of the people we honored yesterday was 
the young man with the crutches who was celebrated during the 
State of the Union Address. I just want to note that.
    Mr. Sherman. I am going to ask also Mr. Wollack, does it 
undercut?
    Mr. Gershman. Okay, but what I do want to say is----
    Mr. Sherman. Mr. Gershman, it's my time. I am going to 
ask----
    Mr. Gershman [continuing]. In my view----
    Mr. Sherman. I am going to ask Mr. Wollack to respond.
    Mr. Gershman. Okay. But let me just say one more thing. 
[Laughter.]
    Mr. Sherman. I am not sure the chairman will give me 3 or 4 
extra minutes to allow long responses.
    Mr. Gershman. Give me one sentence.
    Mr. Sherman. If he will, then you're free to continue.
    Mr. Gershman. One sentence.
    Mr. Sherman. One sentence.
    Mr. Gershman. Thank you. I don't think any meaningful 
nuclear agreement is possible without promoting and defending 
human rights.
    Mr. Sherman. Mr. Wollack.
    Mr. Wollack. I think that there has been a sea change in 
the United States over the last 35 years in terms of our 
diplomatic missions.
    I don't think there is an Ambassador in any country that 
does not have democracy and human rights as part of his or her 
portfolio. That didn't exist 35 years ago.
    Now, in some places it's not the number-one agenda item.
    Mr. Sherman. I understand.
    Mr. Wollack. It may not be the second or third or the 
fifth.
    Mr. Sherman. Mr. Wollack.
    Mr. Wollack. And----
    [Crosstalk.]
    Mr. Sherman. I thank you for your comments, but my question 
was directed at what physically happened in Singapore. I 
realize the importance of human rights to the State Department 
in general.
    Mr. Wollack. No, no, no. I am--Congressman, all I am saying 
is that these are organizations who believe----
    Mr. Sherman. The question wasn't about your three 
organizations. It was about the President and his entourage in 
Singapore.
    One thing I want to point out is that perhaps the most 
important thing America does for democracy around the world is 
to serve as a model for democracy, and nothing would undermine 
that more than if we fail to have a verifiable auditable paper 
trail for our own elections, which Congress has yet to fund.
    What happened in the year 2000 in Florida and looking at 
chads would be a minor thing compared to a year 2020 election 
in which we believe that perhaps a foreign entity or other 
skullduggery was capable of manipulating the electoral count 
and that there was no way for us to audit it.
    And I want to turn our attention to Yerevan and Armenia. 
NED has allocated $1.3 million last year. Now we've seen a real 
move toward democracy. Are you going to do more, given the 
fluid situation there?
    Mr. Gershman. Thank you very much for that question, Mr. 
Sherman.
    Yes. The answer is yes. Our board, which meets later this 
week, is making Armenia what we call a country eligible for 
contingency funds, which are funds set aside for new situations 
and, obviously, what's happened in Armenia is very, very new.
    And we--I think there are several priorities that have to 
be addressed. There are going to be quick elections that have 
been called in Armenia and those elections have to have 
integrity to them to give legitimacy to the current Pashinyan 
government.
    There is a Parliament that oversees this and government 
officials are really new to the governing game. The system has 
been controlled by a centralized authority for a number of 
years and so a lot of training will have to be necessary for 
some of the new government officials.
    And then finally, there's going to be a big information 
war, the kind of issue raised by Congressman Royce, and it is 
very essential in this period--and this is what the groups that 
we help are doing--is to get people reliable and independent 
information so they don't make the judgments based upon the 
disinformation that is going to be promoted by the forces that 
have just been removed from power.
    Mr. Sherman. Let me, finally, comment that we have to 
believe in democracy and elections even when we are on the 
losing side and we can't be for overthrowing a democratically-
elected government even if the people doing it are Westernized, 
waging a color revolution.
    If the government was legitimately elected, the fact that 
it has lost popularity in the capital city should not be a 
reason for discarding democratic institutions and a government 
does not fall because it becomes unpopular on a particular day 
under most constitutions.
    I yield back.
    Chairman Royce. We go to Mr. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    Nicaragua appears to be heading in the same direction--off 
a cliff--as Venezuela and Cuba before that. The brutal thug, 
Daniel Ortega, has been using lethal force against innocent 
protestors, having already killed approximately 150 people. 
Many more have been wounded or been tortured or have just 
disappeared.
    There was a massacre of innocent protestors, many of them 
women, on Nicaraguan Mother's Day recently--very recently. Pro-
government Sandinista mobs and gangs are terrorizing and 
killing its own innocent people. What can be done to help 
innocent Nicaraguan civilians who are being brutalized by their 
own government?
    Whoever would like to handle that.
    Mr. Gershman. Well, Nicaragua happened almost at the same 
time as Armenia and they had, so far, very different outcomes. 
In Armenia, the government withdrew. It was not overthrown.
    The Serzh government withdrew and a new government came in 
and they're going to have elections. In Nicaragua, the church 
intervened. There was an uprising. The church intervened to try 
to have a negotiated settlement there and that's fallen apart.
    It was the young people especially in Nicaragua--the 
students--and I was impressed in both Armenia and Nicaragua 
that a lot of the groups that we were supporting just to do 
regular training programs, leadership training, information 
programs--when these events happened, these are people who are 
in the middle of the struggle. It's not something that we are 
doing.
    It's their struggle. But if you sort of find the most 
creative and dynamic and dedicated democrats, they're going to 
be in these struggles when an opportunity comes, and it 
happened in Nicaragua with the announced reform of the pension 
system.
    It was the spark that led to this uprising. These young 
people were in the forefront of this struggle and they need 
continued support and solidarity. There are immediate groups 
there that need continued support and solidarity.
    We have to work with and help the church, which is trying 
to mediate this conflict and we have to let Ortega know that 
there really is no future for his regime. He's lost his 
legitimacy.
    A lot of the young people who are in the streets were 
former supporters of the Sandinistas. He has lost those people 
and Nicaragua has to move now on a democratic path.
    That's going to be a very complicated thing because there 
needs to be a political strategy developed by the people in 
Nicaragua to lead to this. There's no real party right now 
which can offer an alternative to Ortega. They're going to have 
to do that.
    But we just have to continue to support the civil society, 
media, and other elements that are the authentic democratic 
elements and that are outraged by the really utter corruption 
and the undermining of all the so-called claims to democracy 
that Ortega had.
    He's lost his legitimacy. It's time for him to go and we 
have to sort of see this process move forward peacefully.
    Mr. Chabot. Thank you.
    I will move on to another issue. I introduced, and the 
House passed, the Protecting Girls' Access to Education Act, 
which would prioritize education, especially for girls who are 
particularly at risk around the world, in State Department 
programs.
    Could somebody touch on how, in your experience, promoting 
education among vulnerable populations helps to strengthen 
democratic institutions?
    Mr. Twining.
    Mr. Twining. So, I mean, we are not directly in the 
education business but could I just pick up your point about 
girls and women?
    Mr. Chabot. Yes.
    Mr. Twining. It's just really one of the single best 
variables for determining whether a country will have a 
successful democratic outcome in institutions is the role of 
women in political life.
    I mean, one of the pathologies of much of the Arab world is 
that women have been absent from political life in so many 
ways.
    Mr. Chabot. Thank you.
    Mr. Twining. So much of our work in the democracy community 
revolves around trying to empower women and it's not just about 
kind of training and mechanics. It's about a mindset change 
that they do have an equal voice in their country's political 
life and future.
    Mr. Chabot. Thank you. I only have a little time left. I 
want to give you another question, Mr. Wollack, if I can, real 
quickly.
    Last year, Prime Minister Hun Sen expelled NDI from 
Cambodia. My Democratic colleague, Alan Lowenthal, and I are 
the congressional caucus co-chairmen of the Cambodia Caucus and 
we followed the situation very closely.
    There's little doubt that next month's elections are going 
to be a sham. So what do you think is our best response? Is 
there much hope for continuing to promote true democracy in 
Cambodia at this point?
    Mr. Wollack. I think since the 1993 elections in Cambodia 
it's been a series of coups in the country. The CPP did not 
accept the results and Hun Sen did not accept the results of 
the 1993 elections and forced a coalition government, despite 
losing that election.
    In 1997, there was another coup in which the opposition was 
exiled and the latest actions by the government is the third 
coup since the U.N.--UNTAC-run elections.
    What we can do right now is to, as Carl said, keep a 
lifeline to civil society organizations on the ground that are 
trying to engage as actively as they can under very difficult 
circumstances and we can continue to provide a lifeline to a 
legitimate political party that most likely would have won the 
elections if it had been allowed to compete freely and fairly, 
and I think one of the reasons why the government went after 
them is their internal polls showed that they were going to 
lose the election.
    Mr. Chabot. Thank you.
    Mr. Wollack. So I think we can keep a lifeline both to the 
leadership of the party, most of which is in exile, and also to 
the civic groups on the ground.
    Mr. Chabot. Thank you. My time has expired.
    Chairman Royce. Mr. Chabot, getting women more involved in 
the political sphere and in the economy is something we've been 
focused on with the hearings in this committee and it's 
something we will continue to double down.
    Mr. Wollack. Mr. Chairman, I would just like to make one 
quick point.
    I think that one of the best ways that you can address the 
issue of women's education and girls and women's enterprises is 
to get more women elected to leadership positions in political 
institutions.
    There is lots of research that shows when there's a 
critical mass of women in parliaments and in government, they 
will address those issues more effectively, and one of the 
things that NDI and IRI does--they do is to try to help 
political parties, particularly in parliamentary systems, 
reform so women have greater leadership roles and are higher up 
enough on lists in parliamentary systems so they actually get 
represented in parliaments, and then what you see are changes 
that level the playing field for men and women in areas of 
education and business.
    Chairman Royce. Okay.
    We go to Mr. Ted Deutch of Florida.
    Mr. Deutch. Thanks very much, Mr. Chairman, and thanks to 
all of our witnesses for being here. The work that you do has 
never been more important than it is today and, Mr. Wollack, I 
would join my colleagues in thanking you for your dedication to 
promoting democracy and rule of law and governance and 
contributions you made throughout a very distinguished career 
and wish you all of the best in your retirement.
    There was a--well, actually, let me ask this question 
first. We had touched on Kim Jong-un. Could I just ask you to 
describe the nature of Kim's regime?
    Mr. Gershman. This is a personalistic dictatorship. It's a 
dynasty in the sense that he's the grandson of Kim Il-sung, who 
created the regime.
    There is maybe the issue that has gotten most attention is 
the Kwan-li-so, which is the prison camp system where there are 
now 120,000 prisoners. But, as I said last night in remarks I 
made at the award event for our grantees working on North 
Korea, I understand that, reliably, about 400,000 people have 
died in those prison camps. There was, obviously, also mass 
starvation in the 1990s.
    But I consider what's happening in North Korea today, 
Congressman Deutch, an eroding totalitarian system. When we 
started our work in North Korea there was a complete 
information blockade.
    There were no North Koreans who were able to get outside. 
There are now 31,000. The information blockade has broken down. 
One of the groups who are running unification media group is 
getting news in and getting news out.
    There is a market system now in North Korea because of the 
collapse of the state distribution system during the famine of 
the 1990s.
    This is an eroding totalitarian system. So we shouldn't 
give up hope on the possibilities for internal change.
    Mr. Deutch. Right. So that gets me to my question. When the 
President had a face-to-face meeting with Kim--the leader of a 
country where there's been mass starvation, 400,000 dead in 
these prisons, 120,000 prisoners--and then went on in an 
interview the next day in response to a question from Brett 
Baier referred to Kim as a tough guy--he said when you take 
over a country--a tough country, and you take it over from your 
father, I don't care who you are, what you are, how much of an 
advantage you have--if you can do that at 27 years old, I mean, 
that's one in 10,000 that can do that, so he's a very smart 
guy.
    Brett Baier then followed up and said, but he's still doing 
some really bad things, and the President said, yeah, but so 
have other people done some really bad things. I can go through 
a lot of nations where a lot of bad things were done.
    I've got to ask this questions. I have all sorts of 
questions about Russia and Russia's attempts to meddle. I have 
all sorts of notes here about the work that you're doing in 
countries around the world where democracy is at risk.
    But how much more difficult is your work--how much more 
difficult is democracy promotion and standing up for--and 
standing up against repressive regimes that have 120,000 
prisoners where 400,000 have died, where there's mass 
starvation--how much harder is it when the President of the 
United States seems to condone the actions of the worst and 
most brutal dictators in the world?
    Mr. Twining. Sir, I mean, I would just say we've all been 
in business for 35 years, right, and we are so directly tied to 
Congress, which was central to the formation of the democracy 
community institutes. Everywhere I go in the world, I talk 
about congressional leadership in issues like you were 
describing right now.
    I would also just say I think there's a fundamental insight 
that most Republicans and most Democrats share, which is that 
the nature of the threat to the United States from a country 
like North Korea stems from the nature of its regime.
    Mr. Deutch. Mr. Gershman.
    Mr. Gershman. Mr. Wollack, you're leaving, I mean----
    Mr. Wollack. There's no solution aside from----
    Mr. Deutch. Any comments? [Laughter.]
    Feel free to speak freely.
    Mr. Wollack. I think democrats in countries all over the 
world look to the United States. Oftentimes they do, as Dan 
said, look to the Congress as the first address because usually 
it's the Congress, irrespective of administrations, that have 
recognized their struggle.
    Don't forget, it's the Congress that established the NED. 
It was the Congress that established the Bureau for Democracy, 
Human Rights, and Labor at the State Department.
    These have been instructional initiatives. My chairman, 
Madeline Albright, talks about this being Article I time on 
these issues, and I would agree with that assessment.
    I think when American leadership doesn't speak out on these 
issues, people in these countries do feel more vulnerable. 
There is no doubt about that.
    Yet, these people who are very, very brave people are able 
also to compartmentalize and they look to international 
solidarity in a variety of ways.
    And so when there is not American leadership in a 
particular place at a particular time, hopefully, that void can 
be filled by other engagement, and it's--as I said, and it's 
not only a particular leader, a particular government. This has 
waxed and waned over the years.
    Mr. Deutch. Mr. Wollack, I am grateful, actually, for the 
responses from all of you. I am heartened by them and I am 
immensely grateful to the chairman and my colleagues on this 
committee, Democrats and Republicans alike, who continue to 
stand up for American ideals in every part of the world.
    We need to continue to do that and I would note that the 
same thing applies to standing up for our own democracy here at 
home, and I yield back.
    Mr. McCaul [presiding]. I thank the gentleman.
    The chair recognizes himself for 5 minutes.
    Mr. Gershman, what a great event last night to honor----
    Mr. Gershman. Thank you for speaking.
    Mr. McCaul. Yes, and for me to present awards to two 
dissidents who were standing up for human rights in North 
Korea, and in particular, Ji Seong Ho, who was, as you 
mentioned, at the State of the Union, in crutches, for me to be 
able to do that was just an incredible experience, and I want 
to thank all of you for what you do for human rights.
    And I think you mentioned Reagan's speech at Westminster in 
1982 where he said the march of freedom and democracy would 
leave Marxism and Leninism on the ash heap of history, and I 
think he was right.
    But I want to focus on China. I could talk about Russia and 
I could talk about--I've seen the rise and fall of ISIS under 
my tenure as chairman of the Homeland Security Committee but 
now I see the rise of nation states being the bigger threats 
now--that being Russia, China, North Korea, and Iran.
    I had a briefing yesterday in a classified setting on ZTE 
and Huawei, and their efforts to conduct espionage in this 
country. I've also seen them in Sri Lanka where they have 
burdened them with so much debt that they had to turn over a 
strategic port to the Chinese.
    We see the Chinese now in Djibouti for the first time and 
we see them leveraging the continent of Africa into so much 
debt that they will be able to eventually take over these 
countries and exploit them.
    They bring in their own workers. They don't even hire the 
host countries' workers and they export their natural resources 
in what is this One Belt, One Road policy.
    I just want to open this discussion up to the three of you 
on your perception of the threat of China and what the United 
States needs to do in response.
    Mr. Gershman.
    Mr. Gershman. We talk about this all the time. I believe 
this is the most serious problem and the most serious threat 
our country faces today. I disagree with Congressman 
Rohrabacher. I think this is much, much more serious than the 
problem of terrorism, and it's something that I think our 
country is beginning to understand.
    In March, The Economist magazine had a cover story on 
China, and the bottom line of the cover story was--and this is 
a direct quote--``The West's 25-year bet on China has failed.''
    The bet was that if China was brought into the World Trade 
Organization, was encouraged to grow economically, it would 
become a more liberal society and be part of the liberal world 
order.
    The exact opposite happened, and I think, Mr. Chairman, 
that I had mentioned in my testimony Liu Xiaobo--that the 
Chinese destroyed him.
    In 2006, Liu Xiaobo--he's a Nobel Laureate who died in 
prison--wrote an essay where he warned against the problem of 
China rising as a dictatorship, and he mentioned Hitler.
    He mentioned the Meiji emperors in Japan. He mentioned 
Stalin, and he said, this is the danger. This is going to be a 
threat for liberal democracy around the world. He was then 
silenced.
    But what he was saying then, I think, is now becoming 
understood by the foreign policy establishment. There was a 
recent policy article in Foreign Affairs by Kurt Campbell 
basically recognizing that the old view was wrong--that it 
hasn't happened that way and that people are now recognizing 
that we have a new problem. It's a problem with the Belt and 
Road Initiative, which is not just an economic expansion.
    This is intimately tied to China's geopolitical and 
military strategy precisely to get strategic ports in Sri Lanka 
or in Maldives because they fall into the debt trap and pay 
back by leasing their ports. There's the issue of sharp power.
    There's the issue of the South China Sea and the violation 
of the judgement of the international tribunal, which said that 
they did not have control of those islands. This is now being 
recognized as the central problem.
    We have to get our minds around this and we are really at 
the beginning of an effort to try to understand how to deal 
with this problem.
    And I just think that as we go forward in thinking about 
this problem the immediate response is going to be a military, 
a geostrategic, an economic response. But don't forget the 
people of China.
    Don't forget that there are people like Liu Xiaobo in China 
who want a different kind of future and when you tighten the 
centralized power the way Xi Jinping has centralized power 
there are going to be a lot of unhappy people.
    There are going to be splits. We have to not give up on the 
possibility for democratic change in China and keep findings 
ways to support them.
    I realize I am a great optimist. I am always looking at the 
positive side in North Korea in every country, but I really 
deeply believe that this is possible.
    I also think, by the way, that we have to keep our eyes 
focused on the minorities issue, what's happening with the 
Uighurs. It's not physically genocidal but they've got 
internment camps, reeducation camps where a million Uighurs are 
now in those camps.
    There should be an outcry in the Muslim world against this. 
I was speaking with one of our Uighur participants in last 
night's event about this, how can we get the Muslim world to 
protest against the repression of the Uighurs.
    There's the Tibetan issue. We have to challenge--we talked 
about this at the December hearing--we have to challenge China, 
which says that the Dalai Lama must accept the fact that 
Tibet's been part of China since antiquity, which is not true. 
China invaded Tibet. Tibet did have an international legal 
identity.
    We have to challenge these things. We have to defend 
Taiwan. We have to defend Taiwan, which is a Confucius culture 
and a democracy, and China is very much aware of that.
    They would love to eliminate Taiwan or absorb Taiwan. We 
have to ensure that Taiwan could remain an independent 
democracy. We also have to defend Hong Kong.
    So we have to stand firm with the people who are in these 
struggles and not let them lose hope.
    Mr. McCaul. And my time has expired. But I just want to 
close by saying, I remember reading bin Laden's writings. He 
projected exactly what their intentions were, and the Chinese--
I agree with you--are now the bigger threat and they have 
telegraphed that by 2025 they will be a world-dominating power 
both militarily and economically and I think the United States 
needs to wake up to that fact.
    The chair now recognizes Ms. Karen Bass from California.
    Ms. Bass. Thank you. Thank you, Mr. Chair, and I want to 
welcome my colleagues from NED and IRI and NDI, and I am a 
member of the NED board, for my colleagues that are here on the 
committee, and I have to say the work that NED does around the 
world is really tremendous, and I had the honor recently of 
being at the World Movement for Democracy in Senegal.
    And meeting people from all around the world who are all 
committed to fighting for democracy was quite an honor. I 
wanted to ask each of you if you would talk about one challenge 
that is facing that in Africa that all of us are very, very 
concerned about and that's the Democratic Republic of the 
Congo.
    They were supposed to have elections in 2016, and now is 
supposedly putting the elections off until December of this 
year, and I don't believe there's been any indication that 
Kabila has made any commitment not to run and the deteriorating 
situation there in regard to democracy.
    And I wanted to know if you would each speak to the work of 
each of your entities within DRC and then also what more do you 
think Congress can be doing.
    Mr. Wollack. Thank you, Congresswoman.
    First of all, I just want to make one comment about the 
African continent because when people talk about backsliding, 
people tend to ignore the changing face on the continent.
    Between 1960 and 1990 there were four African heads of 
state that stepped down voluntarily, and since 1990 that figure 
is over 50.
    Ms. Bass. Thank you. I appreciate you pointing that out 
because we don't acknowledge when there's peaceful transitions 
of power, which happen frequently, as you have mentioned.
    Mr. Wollack. And some of the fastest growing economies in 
the world are in places now that are new democracies on the 
African continent.
    In terms of the DRC, it is a mystery. Nobody knows what is 
going to happen. What we are trying to do is to work with 
political parties across the spectrum, trying to promote 
dialogue and preparations for what everybody expects, or 
everybody hopes if not expects, in December.
    But the big question is going to be Kabila himself. I fear 
if he makes a decision to run, you're going to see massive 
social unrest in the country, which not only is going to affect 
the people of the DRC but it'll have regional implications.
    And so the question is, how do you prepare now for a 
process with the assumption that he will make the right 
decision--really, the only decision, that he should make and 
that's what we are all doing--working with civil society 
organizations to monitor the elections, helping the parties 
develop sort of the rules of the game for the election, support 
the election commission and NDI, IRI, and IFES have been 
working in tandem, identifying what the needs are and then 
working on the ground and trying to respond to those needs.
    Ms. Bass. Thank you.
    Mr. Twining. Congresswoman, could I just add--I mean, that 
sums up some of our work. But there's a broader dynamic, which 
is that there are these African success stories. But we had an 
African leader say to us recently the problem--you look at DRC, 
you look at South Sudan. These countries aren't just a problem 
for themselves.
    Ms. Bass. Right.
    Mr. Twining. They destabilize the entire--refugee flows, 
illegal drugs, militias, everything, the whole human 
trafficking--and that when you think about the African 
integration agenda, when you think about 1 billion new people 
coming online in Africa in the next 30 years and what the 
economic potential of that is versus the darker scenario if 
those people don't have opportunity--if they are pushed to the 
political extremes.
    We have got to get these almost black holes right, right, 
that are destabilizing the entire continent, and it's a bigger 
job than any of us can do. But thank you for the focus on it.
    Ms. Bass. Sure.
    Mr. Gershman. I just think that more people have died in 
the Congo over the last 20 years from conflict and the disease 
and violence associated with conflict than in any other country 
in the world.
    So this is a problem that has to be central to our 
attention. I would say only one other point. The opposition is 
going to come from grassroots citizen movements if there is not 
a free and fair election. There is----
    Ms. Bass. Which NED supports.
    Mr. Gershman. Just as we've seen in other countries like 
Burkino Faso, Senegal, in 2012, where they had the uprising--
the Y'en a Marre uprising--and you have these citizen movements 
that are now all over Africa, and they are the leading force 
that, I think, is going to lead to change in the Congo, and a 
lot of the groups that we support, you know, are trying to 
train and educate people in these citizen movements.
    Ms. Bass. And let me just say, Mr. Chair, before I move on 
that we do have a bipartisan bill that we've been working on 
that I do hope we have a markup on in this committee as soon as 
possible.
    And in walks our chair, Mr. Royce. Thank you. I yield back.
    Mr. McCaul. The chair recognizes the gentleman from 
Florida, Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman, and I appreciate you all 
sitting here. I've had the opportunity to speak with most of 
you and I've read your stuff over the years. I really do 
appreciate the work you do in your organizations, and that is 
to spread the values and ideals that we hold true, and that 
President Reagan was so great sharing with the rest of the 
world, and those are life, liberty, freedom, and the pursuit of 
happiness along with human rights as enshrined and protected in 
our Constitution.
    We have been attempting to perfect it over 200 years 
through many trials and tribulations, and yet we still don't 
have it right. So bear with me for a moment.
    As you know, the word democracy is used loosely around the 
world. We have a pretty good understanding here. A democracy is 
defined as majority rule, or mob rule, and we have a 
constitutional republic, a republic that uses a democratic 
process where the majority of votes won in an electoral college 
system wins and, yes, some countries do have a majority rule by 
the votes that are cast by the electorate.
    So when we talk about spreading democracy around the world, 
I wonder if we are not spreading the wrong message. If one is 
to watch our news and you see the constant of our political 
leaders, all the way up to our President, and they receive it 
24/7 that people in America are not happy with our many 
freedoms, do you see where it gives leaders in other countries 
pause and casts doubts to its citizens on fighting for what 
kind of a country they want, or what form of government, like a 
democracy?
    Then a leader like Xi Jinping points to America and points 
out the flaws of democracies, or Chavez, Castro, or Maduro says 
they are a result of failed democracies. Or any other 
authoritarian dictator or thug points to a democracy as a 
flawed form of government.
    Again, is there cause for people or leaders in a country to 
question what form of government they want? We believe it. We 
fought for it. We've had it for 200 years.
    As you all have said, democracy is on the ropes and it's 
being challenged, and I think of Mohammad Ali talking about the 
old rope-a-dope in the boxing ring.
    It's something we've had to fight for and it's something 
that we believe in and we hold these values true. But today 
there is a paradigm shift going on around the world we have not 
seen since pre-World War II and there are two dominant players 
today.
    One is us--the United States, with the most successful, and 
I am going to put democracy in quotes or, more accurately, a 
republic, that offers those liberties, freedoms, in the pursuit 
of happiness along with the human rights and self-governance, 
provided one stays within the parameter of the law, and we 
honor the rule of law.
    These are the rights guaranteed and protected by our 
Constitution.
    And the second being offered is by China and their dictator 
now for life, Xi Jinping, offering an alternative to leaders 
around the world. He's not going to offer it to people in 
another country. He's going to offer it to their leaders.
    Their form of socialism with Chinese characteristics and, 
as we all know, that's communism. Our form of government 
empowers the people. Empowered people reach their full 
potential. China empowers the government where the people are 
suppressed for the benefit of the government.
    And so as we go around, doing what you do--and I commend 
the work you do because it's vital--we have to--we can't back 
off of it, and no amount of money is going to fix it. You're 
not going to spread it everywhere in the world.
    But if you spread those ideals that President Reagan spoke 
about, those are innate in every human being on this planet. 
Those are the things that will win by empowering people to 
those ideals they know they have, and there's not enough money 
in the world to do it.
    But if you empower those people by working through the NGOs 
and the things like you guys do and find those leaders that are 
willing to tie into that, we'll win that every time because you 
cannot suppress people over and over again because they yearn 
to be free.
    And so knowing what we know, as we talked about earlier, we 
get asked a lot about North Korea. Yes, it's very dangerous and 
it's very serious. But it can be dealt with diplomatically, I 
truly believe, and we are on the road.
    You know, a job begun is half done. And the biggest threat 
we have is that challenge to the form of government that we see 
challenged today and how do you think the best way we need to 
go about challenging what we see as the rising dragon out of 
the East?
    Mr. Gershman or Mr. Twining, you are ready there.
    Mr. Twining. I could be quick, because Carl got his shot on 
China and I was hoping to get mine. [Laughter.]
    So it's very interesting with China because the Chinese 
used to bide their time, keep a low profile. That was the Deng 
Xiaoping advice.
    Mr. Yoho. Right.
    Mr. Twining. Xi Jinping has come out and said actually 
China can be a model for you, other countries----
    Mr. Yoho. Right.
    Mr. Twining [continuing]. And it's the whole suite that, if 
you're a strongman in another country it's very attractive. 
It's not just the money. It's not just the one-party system or 
one-man system.
    It's the surveillance architecture. This Orwellian total 
surveillance state they're building with artificial 
intelligence and facial recognition and all this stuff.
    It's very attractive, as you say, not to people but to 
leaders. So, I mean, I think first response is we've got to 
stick with this. Gosh, if there was ever a bad time for America 
to cede the field, it's not that--this is a bad time to cede 
the democracy field to other countries, who have very malign 
intentions.
    That's one. Two, your fundamental insight, which, put 
another way, is that the thing about China and also Putin, they 
are fundamentally most afraid of their own people.
    Mr. Yoho. They are.
    Mr. Twining. Right. We are not. We have a system that is 
very responsive--totally responsive to our publics and we have 
regular elections--do monitor that.
    These leaders, their strategic Achilles heel is fear of 
their own publics and I think we should think about the old 
Reagan message of exploiting that a little.
    Mr. Yoho. I would like to get everybody's comment but I am 
out of time with respect to everybody else. Thank you.
    Chairman Royce. So we are going to go to Bill Keating of 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    Just want to follow up a little bit on Mr. Deutch's 
question a little bit, and I mean this--I know you want to get 
away from partisan kind of issues but sometimes you can't.
    One of our goals when we go to countries and we are 
representing the United States of America we are proponents in 
our own rights, as Members of Congress, on issues like freedom 
of the press, rule of law, freedom of religion, free elections.
    But, honestly, not so much in public conversations but 
privately we get thrown back in our face freedom of the press--
well, what about fake news--what about, you know, business 
attacks at networks, undermining that from the business 
concern, which the President has done?
    What about rule of law issue where these partisan attacks 
on enforcement agencies like the FBI or attacks on the 
judiciary based on the family history and nationality of one of 
the judges--freedom of religion on exclusionary orders or 
freedom of elections from statements that 5 million people in 
our country are voting illegally, or congratulating Putin on 
his election or even recently the German Ambassador putting his 
hands on the scales saying that he hopes in Europe that is more 
conservative winning in the elections, to paraphrase him 
loosely?
    So those are the issues. It's hard for us to do that. Any 
suggestions?
    Mr. Wollack. I will just make perhaps one point in this. 
There is an issue, too. Even though there were NGOs, we are 
operating on U.S. Government money, too. And so there is 
understandable, I think, reluctance to get involved in 
critiquing the administration's foreign policy.
    Mr. Keating. Okay. Maybe this.
    Forget what I just said and pretend it's a hypothetical.
    Mr. Wollack. But I will tell you that overseas what people 
admire most about the United States is not a single individual. 
It happens to be the institutions of this country.
    There are many people and many places who would say we 
aspire to have your problems, because if our leader says 
something we do not have the option to turn on television and 
hear that leader criticized in mainstream media. We don't see 
the courts operating to create some check on the executive. We 
don't see Congress with the Article 1 powers, the right to 
subpoena, the right to control the budgets, that can provide 
another check.
    We don't see civil society in a way that can deal with 
these issues. So I think there's an understanding that there 
are problems politically. There are problems in this country.
    There are problems in lots of other traditional 
democracies, and the sense of people in these countries that 
the traditional systems are not responding to their needs.
    Mr. Keating. Thank you. If I could just interrupt for a 
second, thank you for taking a stab at that. I would say this, 
too.
    Often I preface statements to other countries where we 
might be a little critical of the way they're operating. I say, 
you got to understand our country. We criticize ourselves, I 
said, so what I am doing and what we are doing here, that's us. 
That's part of our DNA.
    So I think it's a great point to point out the fact that, 
look, we are having our own political differences--but that's 
what we are about.
    So thank you for that. I have another quick question that's 
really granular, I know, because I just received some 
correspondence--and we mentioned Nicaragua before and some of 
the violence.
    I had a disturbing communication sent to me with the 
threats on some Jesuit priests and the clergy that are there.
    They're outspoken in many of their doctrines, and there's a 
Father Jose Alberto Idiaquez, who is a rector there in Central 
America University in Nicaragua. He's an educator. But his life 
has been threatened.
    Can we do anything as a country to try and deal with those 
issues where even educational heads--religious heads are just 
speaking up and their lives are being threatened? Is there 
something we can do in the U.S. to try and help in that regard 
at all? Any suggestions, based on your experience?
    Mr. Gershman. Throughout the world we are in countries 
where the people that we work with are being threatened, being 
killed, and we do everything we can. Congresswoman Bass 
mentioned the World Movement for Democracy and we have an alert 
system where we put out alerts which go around the world and we 
can do that.
    The government, presumably has tried to provide training 
for security services. But you have a corrupt government in 
Nicaragua, which is actually part of the problem, not part of 
the solution.
    Ultimately, you have got to press for political change 
there because this system is responsible for killing a lot of 
dissidents, and organizing these turbas against young people 
who have their own legitimate criticisms of the government, and 
I just think we have to mobilize both through official 
channels, our Government, the international community but also 
then the private human rights organizations to put pressure on 
Nicaragua so Ortega realizes he can't get away with this.
    And then we have to continue to support the people inside 
Nicaragua who are fighting for a better way of governing 
themselves.
    Mr. Keating. My time has expired. I thank you all. Forward 
some of this information.
    Mr. Wollack. I would say publicity under these 
circumstances is the best response, whether it's the OAS, the 
Human Rights Commission within the OAS, whether it's Members of 
Congress, whether it's human rights organizations around the 
world.
    That is not an antidote but it provides a degree of 
protection.
    Mr. Keating. As you may gather, that's why I mentioned it.
    Thank you so much. Mr. Chairman, thank you.
    Chairman Royce. Thank you.
    We go to Mr. Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman, and I wanted to tap my 
foot and say amen to my friend, Mr. Keating, from 
Massachusetts, and his comments and his questions.
    I want to cover three subjects in 5 minutes so make your 
answers brief. So if I ask you the time, don't tell me how to 
make a watch, if you can appreciate it, because you all have a 
lot of wisdom here.
    Globally, what do you personally see is the number-one 
entity that is a threat to democracy, worldwide? Is it China? 
Is it Russia? Is it North Korea? Is it ISIS? Is it Iran?
    Pick one. Pick the one you think is a threat.
    Mr. Gershman. China.
    Mr. Poe. China.
    Mr. Gershman. China.
    Mr. Poe. Mr. Twining.
    Mr. Twining. China.
    Mr. Poe. Mr. Wollack.
    Mr. Wollack. Russia.
    Mr. Poe. Russia. Russia and China.
    Okay. Turkey--it seems to me Turkey is moving away from 
democratic principles at a rapid rate, everything from Erdogan 
to security guards coming to the United States and beating up a 
bunch of Americans and then fleeing the country and Erdogan 
never, I think, took responsibility for that, and some of the 
things internally that are happening to what I see democracy in 
Turkey.
    What can we do to help Turkey move back toward a democratic 
state? Anyone of you want to tackle that? Then I have one more 
question.
    Mr. Gershman. Well, look, they've got elections coming up 
in less than 2 weeks--June 24th--and those elections could go 
to a second round. That's very, very important and we should 
insist that these elections are free and fair and that there's 
a fair count there, even though the media situation is not 
fair.
    The regime in Turkey--there's a real economic crisis. I 
think they're worried about that. They want an election soon 
because they see the economic problems coming later, and so I 
think if you can help the alternative points of view emerging 
there--I know that NDI and IRI are both working on that and 
they may want to say a word. I think what would be very, very 
helpful.
    Mr. Poe. Okay.
    Mr. Twining. Just very quickly, I would say if there was 
some way for us to stabilize Syria--not us the democracy 
community, us the West----
    Mr. Poe. Okay.
    Mr. Twining [continuing]. Because he has manipulated anti-
Kurdish nationalism inside Turkey to bolster his political 
standing and hollow out institutions.
    Mr. Poe. Good point.
    Mr. Wollack. Support for the democratic center because he's 
been able to play off the very--the opposition parties and 
opposition groups over the nationalism issue, and how do you 
support the democratic center in the country and a large civil 
society network that are advocating for these checks and 
balance principles.
    Mr. Poe. Okay. And the other issue I want to talk about are 
the three countries of Moldova, Ukraine, and Georgia.
    All three countries, I think, seem to have the similar 
issues internally and externally. All three countries are 
occupied by Russian troops. They're close to Russia and to me 
it seems like they're kind of on the fence about which way 
they're going to go.
    I met with all three Speakers of the House not long ago in 
Moldova, and we talked about these very issues. But what is the 
realistic situation in those three countries today as you see 
it?
    Mr. Twining. Sir, I lived in Georgia for 3 years before 
this job. We also have a lot of Ukrainians coming through IRI. 
I don't think there is a big divide. They want to be part of 
the West.
    They want to lean toward Europe, toward the United States. 
A Google executive told me that Russia is waging a ``total 
war'' against Ukraine in cyberspace. He said it's like 
Hiroshima and Nagasaki in cyberspace. You just don't see it 
because it's all these digital assaults on Ukrainian Government 
institutions, on free media in Ukraine, et cetera.
    So I would just reference that I don't think the people are 
equally divided. Most of the people in those countries want to 
be part of the modern Western world.
    Mr. Poe. I was in Georgia the week after the Russians 
invaded in 2008, and the Russians are still there. Now, I would 
agree that it's the people that want to move to the West. But 
the government maybe doesn't seem like it to me that are moving 
to the West.
    But maybe you disagree.
    Comments by the other two of you on those three countries--
Ukraine, Georgia, and Moldova.
    Mr. Wollack. Yes. I would say Moldova is slightly different 
than Ukraine and Georgia in this regard. Both--in Georgia, 
overwhelming majorities are for joining the EU and NATO and a 
large majority in Ukraine.
    Moldova is mixed, and the problem in Moldova is you have a 
substantial portion that looks East and a substantial portion 
that looks to the West but doesn't see the benefits coming from 
integration, and they view the pro-Western parties as corrupt 
and out of touch.
    And so you have a very divided government. You have a 
divided population and that can go either way. And so the 
parties that favor European integration have not been doing a 
very good job in terms of communicating with the public on the 
benefits of participation in the EU and they are seeing that 
there's a crisis of confidence in those parties.
    And the question is whether there will be some third way in 
the country that provides an alternative to these two polar 
political movements.
    Mr. Gershman. Congressman, you wanted a short answer. So in 
Moldova and Ukraine, in addition to the Russian problem, the 
critical problem is corruption, and we have to work to support 
groups who are fighting corruption from the grass roots.
    Otherwise, those countries are going to lose population 
because nobody will invest and people will leave and that's 
happening even right now.
    In Georgia, I would only add one point. We are doing a lot 
of work right now with a group that's working with the Georgian 
Church--the orthodox church--and they brought a lot of these 
orthodox priests here, along with Muslim and Catholic leaders 
as well, last November. I think it's extremely important to 
work with the church, to see that they're connected to Europe 
and connected to the United States.
    This is a very important thing we can do, and I hope that 
when they come again--because they may be coming again--that 
they can come up to the Congress and meet with you because the 
church in Georgia I think is a kind of a central institution 
that could lean to the East but also is now being connected to 
the West.
    Mr. Poe. Thank you very much. I yield back. I will yield 
back. We are out of time.
    Mr. Wollack. One positive development I would say in 
Moldova at the grass roots you have hundreds of mayors right 
now who represent the new reform movement and I think change--I 
think positive change can come from the bottom up.
    Chairman Royce. Lois Frankel from Florida.
    Ms. Frankel. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here and for your work.
    And I just want to start out by saying that I believe in 
our democracy and what you're doing. I think we always have to 
be mindful of protecting our own democracy.
    We have some flaws--the money in politics. We had a flawed 
ballot in Florida. A few years ago I think we had a FBI 
director who interfered in the last election.
    I mean, these are issues that we have to deal with, and I 
think something that I just have to raise today, and I don't 
know if you want to comment, is what we are doing on the 
border, pulling children out of the arms of families and then 
putting children in cages, parents not having any contact with 
their children for months, to me is abominable and just it goes 
against everything that I know I was raised to believe about a 
great country.
    And I am going to ask you if you want to comment on that. 
Does anyone want to comment on that?
    Mr. Twining. Congresswoman, I would just say as a dad that 
I just think about the conditions in Central America in 
particular that motivate parents to try to come to the United 
States and how desperate they are because of conditions at the 
source and how our work, hopefully, can impact that.
    Ms. Frankel. Thank you.
    And I know we've put you in an awkward situation. You're 
trying to get funding from a government where if you look 
awkwardly at the President he'll cut you off at the knees.
    Anyway, I don't depend on my funding from him so I can say 
what I want, and I think his policy at the border is, as I 
said, is a disgrace to our country.
    Anyway, I will move right along to my next subject, which 
is that I think it's quite obvious that you can't just drop 
ballot boxes around the world and say oh, come on, have a free 
election.
    There must be infrastructure in place. Actually, it could 
even be a road, right. It could be water supply. It could be 
education, health care, projects that give people confidence in 
a government that's going in the correct direction.
    And what I would like to hear, if you could, is comment on 
the importance of us having, I would say, a global policy that, 
again, cuts to the State Department where you cut USAID or 
money to NGOs that help provide the infrastructure to 
democracies as related to what you are fighting for.
    Mr. Gershman. This is bread and butter of what we do, of 
course.
    I would just add, agreeing with what you just said--the 
issue of free media, which has been of critical importance.
    Mr. Wollack. People are in a demanding mood. They want to 
put food on their table and they want the right to have a 
political voice in a country, and they're not going to give up 
either one.
    And so, therefore, there is a responsibility to respond to 
that by the institutions in those countries and they deserve 
and expect and support outside assistance, particularly at 
these critical times.
    People talk about sequencing--that somehow people have to 
have a certain level of education or the society has to build a 
middle class before they can have fundamental political and 
human rights.
    That's really not the case. I mean, people, demand both, 
and we have to respond to both of those desires on the part of 
people and they both reinforce each other.
    Ms. Frankel. One more point that I would like to make, 
because I am going to run out of time, I think one or two of 
you--I think maybe it was Mr. Wollack, you gave what I believe 
is a very good presentation--part of your presentation on the 
role of women and the importance of empowering women to have 
democracy.
    And just, you know, what I have seen, not only in this 
country but around the world is we have an administration that 
is trying to, I will say, disempower women in every way 
possible.
    Let me give one specific example in terms of the rest of 
the world, which is the expansion of the gag rule, which now 
has basic--and cutting off funding to the U.N. Population Fund, 
and cutting of health care.
    Not--we are not talking about cutting off abortion just--we 
are talking about cutting off health care to women all over the 
world, and organizations that fight child marriage and 
trafficking and so forth.
    I would like to hear a comment on that.
    And what I see are blank stares, and I think it's very 
unfortunate because if you think you're going to get democracy 
in the world, we better empower the women.
    And maybe next time we'll have some women over there so I 
don't get a blank stare when I ask that question.
    Chairman Royce. Will the gentlelady yield?
    Ms. Frankel. I yield back.
    Chairman Royce. Would the gentlelady acknowledge we do a 
fair number of presentations--witnesses before this committee 
where we actively--myself and Mr. Engel--try to get expertise 
from women?
    It is just a situation right now where the chairman of the 
NED and the IRI and NDI are male. And so I am just trying to--
--
    Mr. Wollack. All I would say, Congressman----
    Chairman Royce. Yes.
    Mr. Wollack [continuing]. Is that one of the major efforts 
of, I think, all of these institutions is to dedicate resources 
and global efforts to promote women's political empowerment so 
there are sufficient women in office at all levels so they can 
address issues like that so these institutions can address 
issues like that.
    We generally don't go in and take positions on policy 
issues. But if sufficient women are in positions of political 
power and the only way they're going to do that in 
parliamentary systems is the gateway of political parties and 
they have to reform, and if women can get in those political 
positions those issues will be addressed by these institutions.
    Ms. Frankel. And thank you. First, I want to say about our 
chairman, he has absolutely been terrific in terms of trying to 
advance women's rights all over the world, and I want to thank 
you for that.
    And I know you can't help who's the head of these agencies 
and no disrespect to the three of you. But I think this is just 
an example, again, of why it's so important to have women at 
the table.
    Chairman Royce. Which----
    Ms. Frankel. As some people say, otherwise you're going to 
be on the menu, and I yield back.
    Chairman Royce. But as----
    Mr. Wollack. Well, at NDI we have a woman at the head of 
our table and that's Madeline Albright. So----
    Chairman Royce. Yes. So one of the things we've tried to do 
in the committee to address this is we have a women's series of 
hearings, and part of our goal on the committee is to get 
governments around the world to focus on this.
    So but I need to go to Mr. Tom Garrett of Virginia.
    Mr. Garrett. Thank you, Mr. Chairman.
    Very briefly, I take marginal umbrage insofar as I believe 
that one who seeks to advance an agenda, whether it's 
empowerment of women globally or any other agenda, will take 
their friends where they can find them and not make political 
points by virtue of the fact that you all happen to each, I 
think, identify as male.
    Having said that, what I mean is I have worked with great 
joy with my distinguished colleague, Ms. Frankel, to empower 
women globally and said repeatedly that I believe that an 
empowered educated economically-thriving class of women across 
the world will reduce radicalism and reduce conflict and 
increase economic opportunity, and I happen to agree with this 
President most of the time.
    So take your friends where you find them, because we are on 
the same team on this one. Having said that, it frustrates me 
to know end--I think the chairman might pull his hair out by 
virtue of my repeated reference of the Vandenberg quote from 
1948 that politics should stop at the water's edge.
    And I heard criticism of this administration as it related 
to the discourse that occurred in Singapore by virtue of the 
fact that there was a failure to mention human rights 
violations in North Korea.
    I would ask you, Mr. Wollack, is there anything we can do 
about human rights violations that have already occurred in 
North Korea--the ones that have already occurred. Can we stop 
them?
    If a human rights violation occurred last year in North 
Korea, is anything that was said in Singapore be influential in 
changing that fact? That's an obvious question and answer.
    Mr. Wollack. I don't know the answer.
    Mr. Garrett. Well, I think probably if it's already 
occurred, unless we have a time machine about which you and I--
you know that I don't, it can't be changed, right?
    But can we do anything to change human rights violations in 
North Korea, moving forward--those human rights violations that 
have not yet occurred?
    Mr. Twining.
    Mr. Twining. Yes. You know, I would say if this negotiating 
process leads to a more open North Korea that creates all sorts 
of new opportunities.
    Mr. Garrett. Having said that, let me ask you the same 
question. Can we change human rights violations that have 
already occurred? Is that possible in the world in which we 
live, sir?
    Okay. And so let me ask you this----
    Mr. Gershman. If I may, Congressman.
    Mr. Garrett. Well, I have a finite amount of time. I won't 
get extra time because I am a new guy and I am about to be out 
of here in January 2019.
    So, Mr. Gershman, with all due respect, I will get to you 
in a second. I have a good friend who I've worked with a number 
of months, back when I was in a different mode, who's in the 
military in South Korea and I was excited at the prospect of a 
detente, if you will, with the North Koreans.
    I would ask Mr. Gershman is the probability of kinetic 
armed conflict on the Korean Peninsula lower or higher, in your 
estimation, than it was in December 2016, today, right now?
    Mr. Gershman. It's very hard. It depends on how the 
negotiations go. But when----
    Mr. Garrett. Right this second, is the probability of 
kinetic conflict lower or higher?
    Mr. Gershman. Right this second? Probably lower. Probably 
lower.
    Mr. Garrett. Mr. Twining, would you say it's lower than it 
was in December 2016?
    Mr. Twining. Lower.
    Mr. Garrett. Okay. And is the probability of a North Korean 
ballistic missile launch lower or higher than it was, say, 1 
year ago, Mr. Wollack--today?
    Mr. Wollack. I would say yes.
    Mr. Garrett. It's lower?
    Mr. Wollack. Yes.
    Mr. Garrett. Okay. And Mr. Gershman, is the probability of 
a North Korean nuclear test lower or higher than it was, say, 
18, 24 months ago?
    Mr. Gershman. Of course it's lower.
    Mr. Garrett. Okay. And so as a result of these things, 
while this negotiation is far from complete, and I would submit 
that the North Korean regime from 1950 has a history of making 
a promise and then breaking a promise, as evidenced by the 
gaming of President Clinton, who I think had very good 
intentions in the 1990s when he strode to a microphone and said 
this North Korea nuclear deal--sound familiar--ends the 
possibility of nuclear conflagration stemming from the Korean 
Peninsula--and I think he meant it--but we know that we need to 
do what I think President Reagan said and that is trust but 
verify.
    Does that sound like an accurate course of action summary 
moving forward with North Korea?
    But we are somewhere where we were not before and I would 
ask you, Mr. Twining--am I pronouncing that correct? Twining--I 
apologize.
    Do you believe that it undermines U.S. foreign policy as it 
relates to the Article 2 powers of the executive branch to 
engage in foreign policy treaties, et cetera, when there are 
435 critics in the House and 100 critics in the Senate who 
immediately go contra, in some instances reflexively, to 
whatever comes from the executive branch?
    Do you think that might undermine the credibility of the 
negotiating power of the executive branch?
    Mr. Twining. Congress is going to have to do sanctions 
relief and fund assistance to North Korea if that comes.
    I worked in the 1990s for John McCain and we were trying to 
defund the KEDO framework because we knew North Korea was 
cheating.
    So there is a congressional----
    Mr. Garrett. And so we have an ability--I would close 
with--and a responsibility that I think this committee 
generally, across the aisle, does a good job with to be a check 
on executive power by virtue of speaking when we are in 
disagreement.
    However, the reflexive disagreement with an administration 
whose near-term goals may seem antithetical to our long-term 
goals may in fact undermine the accomplishment of the 
collective long-term goal which I would argue in the case of my 
distinguished colleagues across the aisle, myself and the 
President of the United States is peace, stability, and global 
opportunity--that the path we choose from point A to point B 
may vary, but that our overarching goal is very similar.
    So with that, I see that my time has expired. I thank the 
chairman and the distinguished members of the committee and 
conclude my remarks.
    Chairman Royce. Thank you, Mr. Garrett.
    We go to Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you to our witnesses, not only for being here but for 
the important work that you're leading.
    I think we all recognize that promoting freedom and 
democracy and protecting human rights is a very important 
pillar of our work around the world and a very critical part of 
America's leadership, and as Mr. Gershman said, it's not only 
morally the right thing to do but it's the smart thing to do 
because it advances the interests of our country.
    And I think there's always been bipartisan support and 
understanding of that basic principle that democracies are more 
resilient, they're more stable, they produce better economic 
conditions and better advance the well-being of all people.
    And I think in particular, to respond directly to Mr. 
Garrett, I think this is actually a moment where Congress has a 
particularly special responsibility to assert itself in 
promoting democracy and human rights around the world in the 
face of what the administration is doing.
    And so I want to just spend 1 second on what Mr. Deutch and 
Mr. Keating had started to focus on, and that is what is the 
practical impact of an American President who is cozying up to 
despotic leaders who's praising authoritarian leadership around 
the world, strongmen? What kind of signal does that send to 
those who are fighting to advance democracy in very hard places 
around the world? The lack of meaningful oversight of the 
corruption of this administration where corruption is such a 
problem in countries that have emerging democracies or 
repressive governments?
    I am just wondering, as a practical matter, as people are 
working in various places around the world, what are people 
saying about the impact of the American--this administration 
engaged in those activities, engaged in that kind of behavior? 
Is it making the work more difficult? What's their assessment 
of it?
    And, obviously, Congress has a role to respond to it. We 
are doing our best to raise our voices. But there has to be 
some understanding of what the implications are for the people 
doing the work.
    Mr. Twining. Sir, I would just say I personally use it as 
an example--democracy is never done, right. We've been at it 
for 200 years. We are still working on it.
    When I go out into the world I talk about our system of 
checks and balances, our system of congressional oversight, our 
system of federalism, so that most Americans are actually not 
being governed from Washington, DC, but by their mayors and 
state legislatures and governors, et cetera.
    So democracy looks different in every country. But I 
actually think we can take some of the lessons about 
separation, et cetera, into the world.
    Mr. Wollack. I would say that it doesn't make our work 
measurably more difficult. As I said, I think people 
compartmentalize.
    WE don't go overseas to preach the American model and to 
tell people that they have to support everything that we do in 
the United States.
    We work internationally. We have international partners. We 
are part of a, really, a democratic solidarity network.
    But I think the people we work with always want strong 
American leadership. They believe in strong American leadership 
and they would want the United States to speak out on behalf of 
democracy and human rights.
    Mr. Cicilline. Thank you.
    Mr. Gershman, I am going to ask you to incorporate your 
response, if you haven't, to my second area that I really want 
to get to, and that is the current conditions in Burma.
    I had the opportunity to be there last November to visit 
the Rohingya in Indonesia and to visit Myanmar, and I am 
wondering what we could be doing better to support democratic 
governance and economic development.
    On the one hand, the discrimination and the near genocide 
of the Rohingya is something which is repulsive and contrary to 
all of our human rights views and human decency.
    And it has been very disturbing to watch the Aung San Suu 
Kyi government actively really obfuscate and really attempt to 
deny this ethnic cleansing.
    And just wondering what actions we should be taking to 
address these challenges of democratic consultation and 
economic instability in Burma while at the same time making it 
very clear to the world that we understand these atrocities 
are--cannot continue and that the individuals responsible for 
it must be held accountable and it must stop.
    And I am just wondering if you have suggesting how we 
should balance that. And then my last question, which I would 
ask anyone to comment, is suggestions on what we should be 
doing in Poland and Hungary where we are seeing very 
significant sliding human rights in free press and I think very 
challenging on many, many levels and love to hear your thoughts 
on both those things.
    Mr. Gershman. Those are such large and difficult questions 
but--and I want to emphasize NED is not a policy organization 
but, obviously, Congress has to grapple with the issue of 
sanctions on Burma, given what's happened, and it's a very 
important question.
    I realize there may be differences between the House and 
the Senate but that's something that has to be worked out.
    On Poland and Hungary, look, we understand these are 
problems--these are countries that are members of the EU. There 
are pressures in these countries especially on independent 
media and political opposition.
    These are the deeply divided countries. But in a sense, we 
can understand that democracy itself is imperiled today around 
the world and these are problems that we have to deal with.
    These are countries with which we are friendly and I think 
we have to be able to talk with these countries and not assume 
that they're inevitably going to go in this direction.
    These are still democratic countries and they still have 
independent media and political oppositions and we have to hope 
that they will move forward.
    I am not going to get to the other questions because the 
congressman has left. I will end there.
    Mr. Cicilline. You can just finish the answer even if 
he's----
    Mr. Gershman. Well, let me just say one other thing on your 
first question regarding the statements made.
    Nobody that we support is giving up. In other words, I want 
to leave you and others with the understanding--with the 
knowledge that there are dynamic forces on the ground in all 
these countries that we connect to that are energized.
    Now, they may be discouraged if there are statements made 
that suggest where the United States stands. But that could 
also encourage people to realize that they've got to take their 
future into their own hands and be more self-reliant, which is 
also something which can be positive.
    But this is not stopping--I think the Congressman who 
talked about the aspirations of people for freedom and 
democracy. That is true around the world, and I think it's, in 
a way, the reason--the central reason why the National 
Endowment for Democracy and its institutes are successful 
institutions and can accomplish great things with relatively 
limited resources, because we are not imposing anything.
    We are not asking people to do anything that they don't 
want to do. We are supporting their own aspirations and giving 
them some of the tools to realize those aspirations, and I 
think it should not be forgotten NED was created as an 
independent institution so that even when you have problems, 
whatever the problems are with the executive branch, our work 
continues consistently, and I think that was a brilliant idea 
and it's in the National Endowment for Democracy Act adopted by 
the Congress by Dante Fascell in 1983, and I think it was 
brilliant to give the NED that kind of independence so that we 
can go forward, regardless of what the policies of the 
executive branch are at any particular time.
    Mr. Cicilline. Thank you, sir.
    Chairman Royce. Brad Schneider, Illinois.
    Mr. Schneider. Thank you, and I want to thank the chairman 
and the ranking member for holding this critically important 
hearing.
    I want to thank the witnesses, first, for your patience 
staying here this morning, for your work and commitment to 
democracy here and around the world--for your passion and for 
your optimism. It's been refreshing to be here this morning 
with you at a challenging time.
    Mr. Gershman, in your remarks and written testimony you 
referenced that Freedom House, for the past 12 consecutive 
years has said there's been a decline in civil and political 
rights.
    My first set of questions are around this and anyone can 
feel free to respond. But what do you see as the key drivers of 
that decline? Within the context of U.S. policy, what are the 
risks to the United States? What are the opportunities for the 
United States? What are our responsibilities?
    And I guess the third is how do you see or what do you see 
the United States role should be in reversing that decline and 
making sure the democracy that we as a Nation have held so dear 
and worked to perfect over the entire course of our history has 
the opportunity to take hold and prosper around the world, 
which will also benefit the United States?
    Mr. Gershman. Well, Congressman, the problems of both 
external, meaning resurgent authoritarianism, and we've heard a 
lot about that today, and internal democracy is difficult, and 
countries have problems of corruption.
    Elites can be divorced from their people. These are 
difficult things, and the Freedom House survey is a reflection 
of the troubles that we've seen in the world.
    But I think it's important to point out that the total 
number of democracies in the world mushroomed after what 
Professor Sam Huntington called the third wave of 
democratization, from about 70 to 125, which is quite 
remarkable, and we are still having, in a sense, problems 
absorbing these changes.
    Huntington also predicted what he called a reverse wave, 
the first waves of democratization were followed by the rise of 
Nazism and communism in the 1920s and 1930s, the breakdown of 
democracy in the 1960s and the 1970s, the rise of military 
dictatorships. You then have the third wave, and in a way, a 
reverse--we don't even know if it's a reverse wave but what 
they call a recession--whether this was an inevitable part of 
the process and what I guess what I was saying in my testimony, 
Congressman, I don't want to be a Pollyannaish optimist but I 
do see signs that are taking place now in a number of different 
countries around the world which could indicate that maybe some 
change is in the offing.
    When Reagan gave his Westminster speech it was in 1982. It 
was a bad time. It was right after the crackdown in Poland, 
right after the invasion of Afghanistan. We were still reeling 
from Vietnam.
    Sandinistas had taken over in Central America, and Reagan 
said in that speech in 1982, 10 years before Huntington wrote 
the book on the third wave, that a democratic revolution was 
gathering strength in the world.
    That's quite remarkable. And so now it's a bad period. I 
don't know but it's not out of the question that a democratic 
revolution is gathering strength even as we are looking at all 
the negative problems.
    Mr. Schneider. I pray you're right.
    Mr. Twining, I don't know if you want to expand, or Mr. 
Wollack, you had earlier.
    Mr. Twining. When I think about the youth bulge in key 
parts of the world, I think only a democratic structure inside 
countries is going to be able to handle digitally empowered 
kids with smart phones who want to be politically active and 
shake their countries' future.
    I grew up in Africa as a diplomatic kid in the '80s in the 
era of strongmen, and all the Africans I meet today, when I 
travel to Africa none of them wants to live in a country run by 
a strongman, right.
    They want to have a voice and a choice and be active and 
engaged. That gives me great hope.
    Mr. Schneider. We had a hearing here yesterday about the 
Middle East and the explosion of the youth there, because the 
demographics are so important in that context. We need to make 
sure these kids have hope, that they have opportunity that 
takes us beyond here.
    Mr. Wollack, let me just wish you well in your retirement. 
We are going to miss you, but give you the last word.
    Mr. Wollack. I would just say when President Reagan gave 
that speech, when you look at the world at that time, Latin 
America was dominated by military regimes. You had military 
governments in Bangladesh and Pakistan and South Korea, martial 
law in Taiwan, absolute monarchy in Nepal, Communist government 
in Mongolia, dictatorships in Philippines and Indonesia.
    The lexicon of democracy had not even entered the Middle 
East. Soviet Communism had reached the borders of western 
Europe.
    It was pretty bleak at the time, and so one has to look at 
this with some degree of perspective and perhaps a longer arc 
of history, and when we see things that take place on the 
ground in places like Malaysia and Armenia and Nicaragua and 
Slovakia and Guatemala, we see today not only movements on the 
ground but also you have an international architecture on 
democracy.
    You know, intergovernmental organizations at that time had 
nonintervention clauses--the OAS, the African Union. Now they 
have intervened in member states.
    So I tend to look at this as a glass half full and we may 
be talking differently 10 years from now.
    Mr. Schneider. And that's why I reflected on the optimism. 
I will close with this.
    My entire life but, really, the entire history of our 
country we have been a light to the other nations--a beacon of 
hope to people around the world, and I think if we are going to 
see democracy flourish around the world it's imperative that 
the United States continues to be that.
    I am going to close with repeating what Mr. Gershman had in 
his remarks but it's President Reagan's words--the ultimate 
determinant in the struggle that's now going on in the world 
will not be the bombs and rockets but the test of will and 
ideas--our ideas, if you will--a trial of spiritual resolve, 
which I think we have, and the values we all in this room hold, 
the belief we cherish, the ideals to which we are dedicated, 
and I hope as Democrats and Republicans we can stick to those 
ideals. We can stand strong and we can be that beacon to the 
rest of the world.
    I yield back.
    Chairman Royce. We go to Mr. Gerry Connolly of Virginia.
    Mr. Connolly. I thank the chair.
    Mr. Twining, for the record, I don't want to live in a 
country with a strongman either, and I wish Mr. Garrett, my 
colleague from Virginia, was still here. I find it less than 
amusing to hear a friend from the other side of the aisle 
lecture us about criticism of a President's foreign policy 
because all differences should end at the shores.
    That certainly has not been the ethos on this committee. 
When it came to President Obama, whether it would be Syria or 
Yemen or Middle East policy or Israel policy or the Iran 
nuclear agreement or the Trans-Pacific Partnership or the 
climate change accord in Paris, my friends on the other side of 
the aisle were quite reflexively critical.
    That's their right. But we are now going to exercise our 
right and we will not be lectured about it because, frankly, 
now is the time to be speaking up and being heard, given the 
fact that there are threats to our own democracy.
    And I very much appreciate the chairman having today's 
hearing because there are connections between our values and 
whether we are living up to them and what we are trying to help 
other countries do.
    And I applaud the IRI and the NDI and, of course, NED for 
your efforts. I've had the privilege of travelling through the 
auspices of the House Democracy Project to a number of 
countries and, frankly, the work both organizations are doing 
on the ground is so exciting.
    You have mobilized young people, older people, to actually 
express themselves and put their bodies on the line for 
democratic values, in their own cultural setting, and you have 
done it well, and it makes you proud as an American to see the 
work of your folks on the ground.
    I wish more of my colleagues could see it because it 
reaffirms our faith in ourselves but also the aspirations of so 
many people all over the world, and I think it also reaffirms 
the fact that democracy is not cultural-bound.
    It is a universal desire. It has different expressions. But 
everybody wants to be free. Everybody wants to be liberated 
from the yolk of a strongman and to express themselves as they 
see fit, and nothing does America prouder than the work, 
frankly, you are doing.
    And I don't mean to sound too gushy about it. But if you 
see it on the ground and hundreds and hundreds of people 
responding to that call in their own cultural and political 
context, I think there is a wellspring of democratic yearning.
    But we as a country--we, the beacon of that democratic 
ideal--we've got to be consistent in our own democratic values 
because when we stray from them, we damage the work you're 
doing and your folks are doing on the ground.
    Mr. Gershman, we are looking at the fiscal year 2019 
international affairs budget, which would cut democracy 
promotion by more than half and cut assistance to the National 
Endowment for Democracy from $170 million to $67 million.
    Earlier, you testified it would have a devastating impact 
and you'd have to dismantle programs. I want to give you an 
opportunity to elaborate a little bit.
    Mr. Gershman. It's hard for me to imagine, frankly, how we 
could function under those circumstances, and I could name 
countries where we couldn't work but----
    Mr. Connolly. Well, why don't we do that?
    Mr. Gershman [continuing]. The organization would be 
devastated.
    Mr. Connolly. Are there countries--I remember a few years 
ago, working with some friends on international democracy and 
just the threat of budget cutbacks required them to close down 
programs all over Bangladesh, for example.
    Mr. Gershman. Right. And we pride ourselves in 
understanding that the work is long-term work. Democracy 
doesn't come quickly and you have to stay at it with people 
year after year and you build up knowledgeable teams of 
people--deeply knowledgeable teams of people who know how to 
work with the institutes and with the NED.
    If you cut that it just unravels the whole thing.
    Mr. Connolly. Well, let's just--my last remaining time here 
I want to focus on here. It has lasting harm, does it not, in 
both credibility and our commitment to them--there are people 
putting their lives on the line----
    Mr. Gershman. Absolutely.
    Mr. Connolly [continuing]. In fighting for democracy in 
their particular countries, and if we pull the plug because of 
budget fears or actual budget cuts, what happens to them?
    Mr. Gershman. No. I mean, they're dependent on the support 
that they get in so many different ways.
    They're going to continue. But I think we are able to 
really help them--give them solidarity, give them technical 
support, give them financial support.
    It's a lifeline to them, and they say it all the time--you 
withdraw that, it's a devastating blow to them. They're not 
going to leave the scene. They're going to continue to fight. 
But it's a devastating blow.
    Mr. Connolly. And final point--if you're an authoritarian 
regime looking askance at that activity because you see it as a 
threat to your centralization and control, the imprimatur of 
the United States behind that NGO activity matters, does it 
not? And withdrawing it, effectively, actually makes them prey 
to that authoritarian regime.
    Mr. Gershman. That's true, and that's why I said in my 
statement when I said, you know, the support of the American 
people, I take pride in the fact that when we make grants to 
groups abroad, I take pride that it's with American taxpayer 
money.
    We try to protect that money. We try to make sure that 
every single dollar is spent well. But I take pride in the fact 
that that's a demonstration of the support coming from the 
American people.
    Mr. Connolly. Thank you.
    Mr. Chairman, one final point. I want to thank Mr. Wollack. 
I know he's retiring. He's made an extraordinary contribution 
to democracy all over the world.
    And as he said, there were times it all looked bleak, and 
hanging in there and never giving up and giving it his all, I 
just want to tell Mr. Wollack how much all of us appreciate 
that, and I know there are people all over the world you're 
never going to meet who also appreciate it.
    You have made a lasting contribution, and I know your voice 
won't be stilled. You're going to be in a different capacity. 
But Ken, thank you for all you have done.
    Chairman Royce. Thank you. We go to Norma Torres of 
California.
    Ms. Torres. Thank you, Mr. Chairman, to you and the ranking 
member for bringing us together for this very important meeting 
and thank the three of you for doing such great work in 
representing American values abroad and ensuring that you are 
building up, as you put it, knowledgeable teams of people 
around the world that can stand up for themselves and stand up 
for the injustices that their government bring upon their 
communities or their countries.
    And that is why I want to associate myself with some of the 
comments that were stated earlier about women--what is going on 
right here at our southern border.
    When a government decides that it is an important policy to 
rip away a baby that is nursing from its mother and that that 
is good policy, we have to challenge that.
    And this is all I have to challenge that. So as a woman, I 
hope that the members of this committee stand up and look at 
their own families and see themselves as that person seeking 
refuge at our border and how would they feel if they would be 
separated and torn apart.
    There was one person already that committed suicide out of 
desperation. This is not the American values that you fight for 
abroad.
    We talked about earlier about the number of women in 
elected office. Less than 25 percent of women are in elected 
office worldwide, except for the case of Spain, where the 
Spanish prime minister, Pedro Sanchez, appointed the majority 
of his ministry 11 women, I believe--11 women and six men. So 
that brings up their percentage of female representatives to 
64.7 percent. Kudos to him.
    Now, here in the U.S., this administration as inspired 
women all over the country to run for local office and the 
majority of--or more than half of those women running in those 
elected positions have won.
    But we have organizations such as Emily's List that helps 
to fill the gap and support women where there is no support--
where we don't find the support that we need in, one, raising 
the money that we need; two, getting the support that we need 
to get into local offices.
    Are there other organizations like Emily's List globally 
that we can point to and help support to ensure that females 
have a rightful place in the world as we do here in the U.S.?
    Mr. Wollack. The answer is yes. There are groups in 
Liberia--that 50/50 group. There are groups in Mexico. All the 
countries we work there are women's organizations that train 
other women to compete, to run, to be campaign managers, to be 
candidates, and in many of these places our organizations 
support their efforts.
    Ms. Torres. Well, thank you for doing that. I want to urge 
you to continue to do that as well as working with civil 
societies. My work has been primarily focused in Central 
America.
    The work of civil society there in the Northern Triangle is 
critical. CICIG has been under attack. The former attorney 
general there has been under attack.
    MACCIH in Honduras has been under attach. So what more can 
we do to help these institutions move forward with the good 
work that they're doing and how can we help you help them?
    Mr. Gershman. Well, thank you so much, Congresswoman. I am 
very moved by what you said and it's also been wonderful to get 
to know you, and thank you for presenting the reward to Claudia 
Escobar last year--our democracy award--and she has been a 
leader, as you know, in the fight against corruption in 
Guatemala.
    The most important thing, I think, that we can do in the 
fight against corruption in the Northern Triangle is to support 
civil society and groups that are mobilizing against that, and 
we are supporting groups in Honduras and Guatemala that are 
combatting corruption and doing a number of different things.
    One of them is promoting political and electoral reforms. 
They're monitoring state spending both locally and nationally. 
They're providing reliable and digestible information about 
corruption to the people so their voice can be heard.
    They're engaged in projects to translate citizen protest 
and sow concrete political proposals for change. They're 
working to improve the transparency of the selection process 
for the attorney general in the three Northern Triangle 
countries and they're even in Guatemala trying now to create a 
network of businesses committed to anti-corruption efforts.
    And finally, working with the Central American Institute 
for Fiscal Studies, we are working to improve the knowledge and 
technical capacity of lawmakers on issues of fiscal 
responsibility.
    So it's a broad program and I think the critical thing we 
have to do is to support groups from the bottom up--put 
pressure on the governments not to be corrupt.
    Ms. Torres. Which--I just finally want to point to the work 
the IRI is doing to build up with the mayors--with the local 
mayors. I know a couple of years ago I had dinner with some of 
the mayors that you had here that you were training from, I 
believe, El Salvador.
    So I want to--as a former mayor, that work is critically 
important because these are the people that are on the front 
line as it relates to Mexican elections right now. These are 
the people that are losing their lives as candidates in trying 
to move a different agenda forward.
    Thank you so much for allowing me the extra time. I really 
appreciate you.
    Chairman Royce. Thank you, Congresswoman.
    Ms. Torres. I am going to miss you miserably. I am just 
going to keep seeing that every meeting that we have.
    Chairman Royce. Well, Congresswoman Torres, thank you very 
much.
    And I--look, I really want to thank our witnesses here 
today because it's truly and exceptional panel that we have, 
and I am confident that all three of you will continue your 
major contributions to promoting democracy, your contributions 
to our Nation's interests for years to come.
    And I think the members of this committee learned from you 
an awful lot today, as we've heard your strong bipartisan 
support for democracy promotion, for the work of your 
organizations.
    We also heard of the grave challenges to democracy 
engineered by authoritarian regimes that are systematically 
attacking democratic societies.
    This committee will continue to do all it can through 
hearings and through legislation to combat these efforts. As 
Mr. Wollack noted, we as a country are just waking up to these 
challenges.
    They have to be met. So, again, thank you, Carl, Dan, Ken. 
Thank you very much.
    Mr. Engel. Mr. Chairman, would you--would yield to me.
    Chairman Royce. Let me yield to the gentleman from New 
York.
    Mr. Engel. Yes. Thank you.
    I also want to, again, reiterate to our three guests how 
much we appreciate your testimony here but, more importantly, 
the work that you do day in and day out.
    We really do appreciate it, and I think you could see by 
the fact that so many members stayed or came back to make sure 
there was tremendous interest in having you here and in 
listening to what you have to say.
    So I want to, again, thank all of you for coming and we 
work very hard, the chairman and I, on this committee. We use 
the word bipartisan and we use that word because we think this 
is the most bipartisan committee in the entire Congress.
    And what better subject can there be when we are talking 
about bipartisanship than the work that you three gentleman do, 
where partisanship stops at the river's edge.
    It's so important with--dealing with all these 
international problems. And so, again, thank you for all your 
good work.
    Mr. Gershman, Mr. Twining, thank you, and Mr. Wollack, as I 
said before, good luck, and I don't know--you will have a lot 
of free time. You can come to our hearings here. We'll still 
work in a bipartisan fashion.
    And I just feel that everything that the three of you said 
was very important and I hope people are watching.
    Thank you.
    Chairman Royce. And let's also acknowledge, Eliot, I think, 
contemplating the work and the risks that your associates all 
over the world, in countries all over this world are taking, 
for the goals that you're championing, that we are all--that we 
all believe in, that works needs to be acknowledged as well.
    The level of dedication of those out there in the field day 
in and day out. So thank you, and we stand adjourned.
    [Whereupon, at 12:55 p.m., the committee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
